         .;




Department of Health and Human Servces
        OFFICE OF
   INSPECTOR GENERAL




    Independent Living Programs
       for Foster Care Youths
         Strategies for Improved
      ACF Management and Reportg




                  S,tRVJC'E.r,


                                 JU   GffBS BROWN
                                 Inspector General
                                    November 1994
              ;,(iYd3a
                                   #OEI-01-   93-0
                        OFFCE OF INSPECTOR GENERA

The mission of the Offce of Inspector General (OIG), as mandated by Public Law 95- 452, as
amended , is to protect the integrity of the Department of Health and Human Servces ' (HHS)
programs as well as the health and welfare of beneficiaries served by those programs. This
statutory mission is carried out through a nationwide network of audits , investigations , and
inspections conducted by three OIG operating components: the Offce of Audit Servces , the
Offce of Investigations , and the Office of Evaluation and Inspections. The OIG also inform
the Secretary of HHS of program and management problems and recommends courses to
correct them.

                            OFFCE OF AUDIT SERVICE
The OIG' s Office of Audit Servces (OAS) provides all auditing servces for HHS , either by
conducting audits with its own audit resources or by overseeing audit work done by others.
Audits examine the performance of HHS programs and/or its grantees and contractors in
carrng out their respective responsibilities and are intended to provide independent
assessments of HHS programs and operations in order to reduce waste , abuse, and
mismanagement and to promote economy and efficiency throughout the Department.

                           OFFCE OF INTIGATIONS
The OIG' s  Offce of Investigations (01) conducts criminal , civil , and administrative
investigations of allegations of wrongdoing in HHS programs or to HHS beneficiaries and of
unjust enrichment by providers. The investigative efforts of 01 lead to criminal convictions
administrative sanctions , or civil money penalties. The 01 also oversees State Medicaid fraud
control units which investigate and prosecute fraud and patient abuse in the Medicaid program.

                OFFICE OF EVALUATION AN INSPECTONS
The OIG' s Office of Evaluation and Inspections (OEI) conducts short- term management and
program evaluations (called inspections) that focus on issues of concern to the Department
the Congress , and the public. The findings and recommendations contained in these inspection
reports generate rapid , accurate , and up- to- date information on the effciency, vulnerabilty,
and effectiveness of departmental programs.

The report was prepared under the direction of Mark R. Yessian , Ph. , the Regional
Inspector General , and Martha B. Kvaal , Deputy Regional Inspector General , Boston Region
Offce of Evaluation and Inspections. Participating in this project were the following people:

Boton Region                                                   Headquarrs

Timothy Corbett                                                Ann O' Connor Program Specialist
David Veroff


For additional copies of this report, please contact the Boston regional offce by telephone at
(617) 565- 1050, or by fax at  (617) 565- 3751.
         ..   p.




Department of Health and Human Servces
        OFFICE OF
   INSPECTOR GENERAL




    Independent Living Programs
       for Foster Care Youths
         Strategies for Improved
      ACF Management and Reportg




                   SERVICEs


                              JU GffBS BROWN
                              Inspector General
                                 November 1994
              qYd'3a
                                #OEI-01-93-
                         EXECUTIVE SUMMAR Y
PUROSE
To assist the Administr!!tion for Chidren and Famies in its efforts to improve its
management and program reporting strategies for the Title IV-E Independent Living
Program for foster care youths.

BACKGROUN
Prgr              Though the Title IV-E Independent Living Program (ILP), the
               goals:

Deparent's Administration for Children and Familes (ACF) supports State efforts
to assist adolescents in foster care--and adolescents who were previously in foster care
after age 16-- to prepare for independent adult life. Such efforts are intended to
enable youths to find housing and employment , achieve positive social relationships
perform daily living activities , and live independently of public support. Federal
instructions to the States note that they " may
                                              use varyng methods and strategies to
achieve the program objectives " though  program  funds may not be used for room
and board , and must supplement , rather than replace , existing expenditures.

This   repn: The program received permanent reauthorization in August 1993 , at
$70 milion per year. The ACF has taken this occasion as an opportunity to
reexamie its                                                    to provide information
                         approach to the program, and has asked the         OIG


and ideas on improved long-  term management    and program  reporting strategies. We
have drawn upon several priary sources of information, including a record review
structured on-site and telephone discussions with State and ACF staff, and a focus
group with members of the National Independent Livig Association.
ACF AN                  TI     FU                OF INEPENEN          LIG
The ACF recognizes that it must address a number of issues as it considers how it can
best   fu   its management and oversight responsibilities. These include questions
about the agency s general role in independent livig, the integration of independent
living into the spectrum of child welfare servces , and the Federal government s overall
approach to the needs of youths.

RECOMMED STRTEGIE
We recommend two broad strategies that ACF should undertake in order to better
ensure accountabilty, promote quality State servces , and enhance understanding in
the field of independent living. The ACF' s decisions regarding its overall approach to
independent living, as outlined above , will help direct its choice of specific options in
each area.
TH ACF SHOUW         REUCT IT INEPENEN LIG                     PROGRA
APPUCATION AN        PROGRA REORTIG PROCEUR.
Issues of Concern:

The ACF' s current application and program reporting mechansms do not adequately
support State plannng and do not allow ACF to gain an accurate national picture of
independent livig efforts. The lack of such information weakens basic accountabilty
and hinders efforts to improve programs and to determe     effective practices.


      The current application process discourages effective plamrg and full
      integration with other child welfare servces.

      Program reporting by the States has been inconsistent.

      The application and program reports have not focused adequately on program
      performance and outcomes.


Options for Improvement:
Requie and support better State plang:
      Create a consolidated State plan for chid welfare servces that includes
      independent living, and set   mium requirements to ensure that relevant
      issues are adequately addressed.

      Require States to establish measurable goals and targets , and to report on their
      progress.

      Adjust the timing of the State plan and the grant award to ensure that funds
      are made available by the beginnig of the fiscal year.

Strengten independent   lig reportg mechanms:

      Retain a distinct focus on independent living and youths in any State chid
      welfare reporting system.


      Use a simple, standard reporting form for aggregate information in order
      improve the reliabilty of data , while mizing the burden on the States.

      Utilize the capabilities of State Automated Child Welfare Information Systems
      and the Adoption and Foster Care Analysis and Reporting System.


      Encourage electronic reporting specifically for independent living.
Improve the content of independent   lig reportg:
      Establish a basic data set for independent living, including basic demographic
      servce , and outcomes information.

      Facilitate the development of clear definitions of independent living terms.

      Collect more detailed budget data through the program reporting mechanism.

      Solicit information on effective practices and innovations.

Focu on progr        performance and outcomes:

      Develop performance and outcomes measures for independent livig.

      Establish general parameters within which States could defie specifc outcomes
      and ways of measuring those outcomes.

      Focus on the status of youths at discharge.

      Encourage and assist State efforts to link independent living data systems with
      public assistance , unemployment , crimial justice and Internal Revenue Servce
      information systems.



      Play an active role in independent living research.

TH ACF SHOUW FOCUS IT           MAAGEM AN PROGRA REORTIG EFORTS
ON INORMTION SHAG.

Issues of Concern:

The ACF has not actively facilitated information sharing among States , components of
ACF, and other Federal agencies. This lack of good communication may be limiting
opportunities for States to improve the quality of independent living servces and for
ACF to provide effective advice to States and others on the program.

      The ACF has not generally made available to States information it currently
      collects and to which it has access.

      The ACF' s interactions with States about the program , aside from the reports
      and applications , have been limited.

      State and ACF offcials see substantial room for improvement , and view more
      complete and accurate information sharing as key to such progress.
Opons for Improvement:
The ACF could capitalize on its investment in independent living by effectively
gatherig, analyzng, and sharing   among the States information on the program
successes and difculties. Below, we identify several specifc options that ACF could
consider. Some of these could be undertaken immediately with no extra financial
commitment , while others might require additional funding. To fiance such activities
in a tight budgetary environment, ACF could seek legislation to provide a set-aside
from the Federal independent living appropriation for these purposes.

Provde wrtten inormtion to the States:
      Report on State performance measures.


      Disseminate qualitative updates on State activities.

      Share model forms and directories of avaiable resources.

Facitate inormation sharg thoug ACF sta:

      Develop a focus for ACF youth programs in central and each regional offce.

      Incorporate independent living issues into other chid welfare monitorig
      activities.

      Become a resource on other Federal programs servng youths , and facilitate
      coordination among these and the Independent Living Program.

COMMNT ON TI DRA REORT
We shared our draft report with and solicited comments from the Administration for
Children and Families (ACF), the Assistant Secretary for Plang and Evaluation , the
Assistant Secretary for Management and Budget , and the Assistant Secretary for
Legislation. We also solicited comments from the Child Welfare League of America
(CWL) and the National Independent Living Association (NIL).
We received written comments from ACF and from CWLA and NIL. They all
concurred with our two recommendations. The CWL and NIL also commented
favorably on several options we offered for each recommendation.
                                            .................................................
                                  . . . . . . . . . . . . . . . . . . .   . . . . . . . . . . . . . . . . ..
                                                                      . .. .. .. .. .. .. .. .. .. .. .. .. ... ... ............................. ... ... ... .. .. .. .. .. ..
                                                                                                                                                                              . .




                                         TABLE OF CONTENTS€
           EXCU SUMY

           INODUCI0N
              . Purpose
                                                                                                        ..................1

              . Background
                                                                                                             ...............1

              . Methodology


              . Structure of          this report                                                                                                             .......3

           ACF AN            TI        FU OF INEPENENT LIG
           RECOMMED STTEGIE.
              . Restructuring the Independent Living  Program
                  application and program reporting procedures. . . . . . . . . . . . . . . . . . . . . . . . . 6

              . Focussing    management and program reporting
                  efforts on information sharing

           COMMNT ON TH                               DRA REORT. . . . . . . . . . . . . . . . . . . . . . . . . . . .. 23
           APPENDICE
            A: Legislative history. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . A-
            B: Methodology                  ............................................... B­

            C: Sample data collection forms. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                                                          .. C­


            D: Sample data elements                                                                                                                           . . . .. D­
. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .. E-€
            E: Sample performance measures


            F: Complete comments on                           the draft report. . . . . . . . . . . . . . . . . . . . . . . . . . .. F-

             G: Notes               ....................................... ........... G­
                                      INTRODUCTION€
PUROSE
To assist the Administration for Children and Famiies in its efforts to improve its
management and program reporting strategies for the Title IV- E Independent Livig
Program for foster care youths.

BACKGROUN
Though the Title IV- E Independent Living Program (ILP), the Department's
Admistration for Children and Famiies (ACF) supports State efforts to assist
adolescents in foster care--and adolescents who were previously in foster care after age
16-- to prepare for independent adult lie. Such efforts comprise " a series of
developmental activities that provide opportunities for young people to gain the skis
required to live healthy, productive , and responsible lives as self-suffcient adults.
They are intended to enable youths to find housing and employment , achieve positive
social relationships , perform daily living activities , and live independently of public
support.

Adolecen in th Chi                       The chid welfare system has traditionally
                                     Welfare System


focused on the security and dependency needs of young chidren , and on permanency
plarg    efforts that include family reunication and adoption. In recent years
recognition has grown of the need for specialized efforts to serve older children , for
whom family reunification or adoption may not be feasible options. Many of these
adolescents will eventually " age out" of the substitute care system , usually at age 18
and will face the need to live on their own. This transition to independent livig can
be difcult for any young adult, but for foster care youths it can pose particularly
formidable challenges. Many of these teenagers start out with distinct disadvantages
including limited social support systems , unstable placements while in care , incomplete
high school education , limited employment experience, emotional disturbance
pregnancy and parenthood , drug abuse , and health problems.

Th   Fedral   Indpennt Livg Prgrm:                    Congress created the Title IV-
Independent Living Program in 1985. Among the allowable servces outlined in the
legislation are programs to enable teens to seek a high school diploma , its equivalent
or vocational training; provide training in daily living skills , including budgeting,
housing, career planning, and health care; provide individual or group counseling;
integrate and coordinate existing servces; establish outreach programs; provide a
written transitional independent living plan to each participant, based on a needs
assessment; and provide other servces. Federal     instructions to the States note that
they " may use varyng methods and strategies to achieve the program objectives,"
though program funds may not be used for room and board , and must supplement
rather than replace, existing expenditures. 4 (See appendix A for the legislative history
of the program.
The program received permanent reauthoriation in August 1993 , at $70 millon per
year. Prior to that time, there was      considerable uncertainty in the chid welfare
community as to the program s prospects. Being unsure of continued Federal support,
some States made only tentative commitments to independent living. The ACF
liewise, refrained from promulgating regulations or devoting substantial time or
resources to the development of oversight or technical assistance efforts for the
program.

AppliaJn and progrm       reportg   predes:
                                                  To receive Independent Living Program
fuds , each State must submit an application    , which is due by February 1st (Le. , durg
the second quarter of the fiscal year for which funding is being requested). Required
information includes a description of the servces and activities the State plans to carr
out, how the State will build on previous years ' activities , the number of eligible youths
and the number expected to participate , and a description of the State s current
efforts. Each State must also submit a year-end program report describing the
previous year s activities; this report is due by January 1st. States are required to
provide a description of servces and activities actually provided , a record of how funds
were spent , and information on the demographics and the outcomes of paricipating
youths. Periodic fiscal reports are also required. Beging in fiscal year 1994, the
applications have been reviewed and approved by ACF' s regional offces.

Cuen ACF inties:        The ACF is currently engaged in a reengieering process
designed to improve its ability to support State child welfare programs. These efforts
                                                               7 and performance
include examiations of ACF monitorig, grants management
measurement. An agency team has been charged to make recommendations that
ACF can use "in designing a new approach to monitoring that is cost effective  and
                                                                       us The ACF
comprehensive enough to address ongoing stewardship responsibilities.
has indicated an interest in movig from compliance monitoring to greater information
sharing. In designing this new approach, ACF will build on recommendations made in
a recent Offce of Inspector General report Oversight of State Child Welfare
Programs " (OEI- 0l- 92- 00770). That report recommended, among other things , that
ACF improve current planning and review processes , focus on outcomes and
performance measures , and enhance information sharing.

METHODOLOGY

We have drawn upon 5 primary sources of information: (1) a review of program
reports for fiscal years (FY) 1992 and ' , and applications for FY' s 1993 and '
from all 50 States and the District of Columbia; and a sample of State FY ' 93 fiscal
reports; (2) structured telephone discussions with   independent jiving coordinators in
10 States; (3) structured discussions with ACF staff in central offce and each regional
offce; (4) an in- depth site visit to 1 State to meet with the independent living
coordinator, technical assistance and evaluation staff, county-level staff, and staff at a
private youth-servng agency; and (5) a focus group and discussions with State
coordinators and other professionals at the annual conference of the National
Independent Living Association (NILA) in March 1994. In addition , we conducted
informal visits to two State programs; attended a meeting of the independent living
coordinators in Region I; held discussions with consultants , academics , and advocates
in the field; reviewed legislation and literature on independent living; and examied
ACF program information and directions. We also spoke informally with participating
youths from Maine , Pennsylvania , Louisiana , and Arzona. (See appendix B for a
more detailed description of our methodology.

We conducted this inspection in accordance with the                         Quality Standards for Inspections
issued by the President's Council on Integrity and Effciency.

STRUcr OF TI                                REORT
The ACF has asked the                     OIG         to provide information and ideas on improved long-term
management and program reporting strategies. Because ACF is aware of the general
limitations in its management of the program to date , we do not outlie these in a
separate section.
                   lO Instead, we begin with a discussion of several underlying
considerations that will affect ACF's overall approach to independent living. We then
recommend two broad strategies that ACF should undertake to better promote and
support State independent living servces. Under each , we describe some of the issues
of concern these address , and then identify a series of specific options for
implementation. This report does not evaluate individual State efforts or specific
program models.
                    ACF AND THE FUTURE OF€
                      INDEPENDENT LIVING€

The recent permanent reauthorization of the Independent Livig Program has
prompted ACF to reexamine its approach to the program. The agency wishes to
determine how it might , withi anticipated resource constraints , better manage Federal
independent livig resources and guide and oversee State programs. It would lie to
determine , in particular, how best to prevent inappropriate or ineffective uses of
independent living funds , while at the same time allowing flexibilty and promoting
innovation among the States. The ACF recognzes that it must address a number of
issues as it considers how best to fulfil these dual responsibilties , including questions
in three basic areas:


       The ACF' s general role in independent lig: How extensive a role does the
       agency wish to play in independent livig? How directive does it want to be?
       How will ACF's role in independent living be affected by the agency s broader
       reengineerig efforts , particularly with respect to monitorig and oversight?

The legislation gives States great flexibilty in spending independent living funds; ACF
has left program plannig and design largely to the discretion of the States. Most
observers consider the program s flexibility-- the ability to innovate and to creatively
address the diverse needs of this population--to be a significant strength; it is our
understanding that ACF does not intend to limit this flexibility in program approach.
At the same time, ACF has indicated that it intends to improve its management of the
program and to coIlect better information from the States. The agency is also
exploring new approaches to program monitorig that will allow it to playa more
consultative and proactive role. The ACF must decide how both to ensure
accountabilty and to guide States within these varied objectives.

       Integration of independent   liginto the    spect   of chid welfe servce:
       How will independent living be further integrated into the overall child welfare
       system? What implications will this have for ACF' s role in independent living?
       What implications wiIl this have for program design, planning, and data
       collection?

Those in the field widely agree on the desirability of integrating independent living
efforts and philosophy into the overaIl continuum of chid welfare servces. At the
same time , many argue that a continued programmatic emphasis on adolescents is
necessary in order to ensure that their special needs are met. In times of limited
resources and demanding case loads , it is argued, the needs of teens can too easily be
sacrificed to the seemingly more immediate crises of small children suffering abuse or
neglect.
The ACF also has a basic responsibility to ensure that the funds directed by Congress
toward the needs of adolescents in substitute care are in fact spent on this population.
The ACF will have to consider ways of resolving these tensions; it will have to assist
States in integrating independent living, without losing sight of it.

       An overa approach to the needs of yout: How will independent livig fit
       into the Federal Government s overall approach to the needs of youths? How
       might collaboration and coordination be improved?

The ACF and other Federal agencies currently fund a variety of programs for youths.
Programs administered by ACF include the Jobs Opportnities    and Basic Skis
                                                , II and a variety of State efforts
program, servces to runaway and homeless youth
funded through general child welfare and social servces funding mechanisms. The
Department of Housing and Urban Development funds transitional housing programs.
The Department of Labor coordinates various employment and trainng programs
including Jobs Training Partnership Act servces. The Department of Justice oversees
a range of juvenile justice programs. The Deparent of Education plays a key role
in educational programs.

Coordination and collaboration among these efforts , however, is often hindered by
poor communication , fragmented funding streams , and divided organizational
responsibilities. Broader approaches to integratig and coordinating these programs
and funding streams are desirable , and will inevitably have major implications for the
tyes of program reporting
                            structures ACF wi use for the program.
                   RECOMMENDED STRATEGIES


In this section, we recommend two broad strategies that ACF should undertake in
order to better ensure accountabilty, promote quality State servces , and enhance
understanding in the field of independent living. We describe briefly the issues of
concern addressed by each strategy and then identif a series of specific options for
implementation. Some of these options are mutually exclusive; others fit well
together. Our goal is to present ACF with a wide range of ideas on how its
management and program reporting procedures could be improved. The ACF'
decisions regarding its overall approach to independent living, as outlined in the
preceding section , will help direct its choice of specific options in each area.

We also intend that these approaches should benefit the States--by helping them to
plan , to understand their own programs , and to learn from their peers. A number of
the options we suggest could actually make the States ' job easier by enhancing the
clarity, effciency, and value of their reporting efforts. We identif some of the costs
as well as the advantages of the various options. On balance , however, we believe
that improved management and program reporting will benefit ACF, the States , and
the youths whom the program seeks to serve.


TI ACF SHOUl RETRUCT IT INEPENEN LIG                                               PROGRA
APPliCATION AN PROGRA REORTIG PROCEUR.

ISSUE OF     CONCE:
The ACE's cu"ent application and program reportng mechanisms do not adequately
support State planning and do not allow ACF to gain an accurate national picture of
independent living efforts. No other source can provide a comprehensive picture of State
activities. The lack of such information weakens basic accountability and hinders efforts
to improve programs and to determine effective practices. The ACF         is   also missing an
opponunity to guide and encourage high quality State program planning and development.

The curent application process        dicourages effecte      plang and        fu integrtion with
other chid welfe servces.

The separation between the Title IV- B joint plan for child welfare servces and the
application for independent living funds has led some States to compartmentalize their
plannng for their youth population. 12 For example , one regional staffer noted that
in one State , the independent living coordinator was not even invited to joint planning
sessions. Another State coordinator described her contribution to the State joint plan
as an " add-on ; her agency did not address the needs of youths in an integrated
fashion in the plan.
In addition, the timing of the application and grant award can be an obstacle to good
program planningY In the most recent grant period , instructions on the application
process were provided more than two months into the fiscal year , and only six weeks
before the due date. The award itself has not been made until the middle of each
fiscal year; many States have been spending their grants in the second year of the two-
year expenditure period. Many States noted that they are not able to co=it
resources until they actually have the Federal funds in hand. The late grant award can
pose particular problems in States that have county-based programs or that rely
heavily on contractors; these States need time to negotiate contracts , process
applications from counties , or channel funds to providers. The ACF staf have
recognzed the liabilities of the separate application process and the problems posed
by the late awarding of funds.

Program reportg by the States has been inconsistent.

The States ' approaches to program reporting and the quality of their program reports
vary greatly. Many reports provide little sense of the intensity of servces , and do not
explain the range of efforts made for youths in various placement settings. In most
cases , there is no clear link between the application and the report; one cannot see if
States have done what they planned to do. It is diffcult to compare State-by-State
information or to construct a comprehensive national picture.

States use various definitions of terms , which can result in duplicate counts and
inconsistent statistics. For example , the basic term ' to be served' has different
meanings in different States. In some , a youth is counted as ' served' if he or she has a
case plan goal of independent living or has received an assessment , while in others , a
youth must be enrolled in a formal life skills course to be counted. The term
 appropriate ' is likewise used in very diferent ways; some States consider all youths in
the eligible age group to be ' appropriate ' for servces , while others interpret the
 appropriate ' criterion very narrowly. Another example is the term ' counseling ; in
some States , this refers only to the servces of a licensed therapist, while in others the
definition is much broader.

A number of State independent living coordinators and regional ACF offcials with
whom we spoke expressed the concern that ACF had not clearly articulated its
expectations of the States. Their criticisms focus on inadequately precise
requirements , unclear definitions of terms , and some conflcting messages from ACF'
central and regional offces. Some reports have been incomplete because States had
not known in advance that they would be expected to report certain information.

One reason for this is the fact that ACF's instructions on program reporting are
purposefully broad; no specific program report format is required or recommended.
One State coordinator pointed out that " it's really hard to make comparisons between
States when they are interpreting the program instructions very broadly and very
individually. " In particular , ACF does not require a specific budget breakdownY
Another reason for this variation in reporting is the fact that State methods of data
collection and analysis--and the strength of their central , State-wide information
capabilities--vary greatly.

The application and program report        have not focued adequately on    progr
performance and outcomes.

Most State applications and reports have presented descriptions of activities planned
or undertaken; little information has been provided on the quality or impact of such
efforts. States are not required to establish goals or targets in their applications , and
must provide only very limited outcomes information in their year-end program
reports.

The ACF has required States to report on the results achieved by participants
90 days after they receive servces. This information , however , has been very diffcult
to collect ,   inconsistently reported , and hard to interpretP Most signficantly, many
States question the value of such information at 90 days after paricipation--it may be
soon enough to reach a considerable number of youths , but too soon to really judge
how well the youths are managig their independence. Many States expressed
concern that the information does not provide valuable insight into the impact of their
programs--and , for this reason , do not see the information as helpful in program
development and management. As one State coordinator expressed it to thin that
there is something magical about that 90 days after servce is not really true; it doesn
tell us anything meaningfl."


OPTONS FOR IMROVE:

Requie and support better State plang:

        Create a consolidated State plan for child welfare services that includes
        independent living.

The ACF has undertaken an effort to combine the plans for Title IV- B Subpart 1
child welfare servces , Subpart 2 family support and preservation servces , and Title
IV- E independent living. Most State coordinators and regional ACF staff with whom
we spoke were very supportive of this idea.

A move to a single, multi-year plan could encourage States to integrate independent
living more comprehensively into the spectrum of servces for children and youths in
substitute care. Implemented properly, it could give greater prominence and
credibility to independent living as an approach to youths and give independent living
staff greater leverage in their overall systems. It could also improve communication
within State child welfare agencies. As part of a consolidated plan , independent living
would be included formally in the State- ACF joint planning process , which could
create a regular opportnity for direct State-ACF interaction on independent living. It€
could move ACF and the States towards a greater partnership in independent livig.€

The potential drawbacks to a single plan might include vagueness or superfciality on
independent living issues. One State coordinator expressed the concern that
the independent living section of the plan might be completed by someone who is not
very familiar with the program. Another was concerned that it could be included as
an add-on to the overall plan , without being comprehensively addressed
throughout. IS€


To avoid these pitfalls , ACF could set some minmum requirements for the plan to
ensure that independent living is adequately addressed. For example , one of the
required goals could be related to the preparation of youths for life after discharge.
To support an integrated approach, ACF could also encourage or require that youth€
concerns be addressed , as relevant , throughout the plans. For example, goals and€
objectives regarding training for staff or foster parents could include elements related
to training in independent living phiosophy and servces.€

To maxmize the benefits of a single State plannig process , ACF could elimiate the
                                                    19 If ACF does not eliminate the
separate Independent Living Program application.
separate application , then it could create a simple, standard application form to ensure
the comparability of information among States.€

       Require States to establish measurable goals and targets, and to report on their
      progress.

The ACF could require States to use the child welfare servces plan (or the
independent living application , if it is retained) to layout specifc goals for developing
a continuum of servces to help youths prepare for independence. Year-end reporting
mechanisms could be used to relate States' progress towards these goals. 2o This
approach might encourage States to think strategically, while at the same time making
their reports more meaningfl to ACF.

The most significant potential liability of this approach is the danger that States could€
set minimal goals for themselves. One State coordinator feared that his own
department , which is only minimally committed to independent livig, could take       the
opportunity to decrease its efforts in the area. If goals were set too broadly,
accountability could be lost.

To guard against this concern , ACF could specify certain minimum goal areas that€
States should address. These might include the availability of servces in various
placement settings (e. , foster family homes , group homes , residential facilities , and
subsidized living arrangements), mentoring opportunities , aftercare servces , training
for staff and caregivers , educational assistance , job experience , job trainng, and life
skills training. Specific, measurable objectives might include things such as increasing€
the percent of youths receiving assessments by a certain age ,   graduating from high
school before discharge ,   or gaiing job experience before discharge; or increasing the
percent of staff or foster parents receiving training in independent living. These goals
and objectives could incorporate agreed-upon performance measures (we discuss the
development of such measures in a later section).

       Adjust the timing of the State plan and the grant award.

Regardless of any changes in the application and reporting framework, ACF could
take steps to ensure that the grant award is made available by the begiing of the
fiscal year. We understand that ACF intends to seek legislation movig the
application due date up to June , which would enable it to disburse grants by
October 1.

Both earlier knowledge of the grant requirements and more timely awarding of funds
could allow States to plan better for the upcomig year. Ths could be particularly
important in States that disperse fuds to local or county agencies or that must
negotiate contracts with private providers.



There might be two potential drawbacks. First , some States may now be spending
money with the expectation that new funds will not be available until late in the fiscal
year; a phase-in period could help them to adjust their spending patterns. Second
some State coordinators use their completed program report as the basis for their
planning efforts and application. The ACF could allow States to use information from
the previous program year as the basis for the application.


Strengten independent       lig reportg mechanms:


       Retain a distinct focus on independent living and youths in any State child welfare
       reportng system.



The ACF is currently engaged in an agency-wide effort to reduce the reporting burden
on States , and to improve the value and use of required reports. As part of this
effort , ACF will consider whether to retain or eliminate the separate year-end
independent living program report. In either case , ACF could continue to require a
specific focus on independent living, both in individual-level records and program-wide
reports.zl

A distinct focus on independent living issues would address three key needs. First , the
program is stil relatively new, and good information is vital for continued program
development and effectiveness research. Federal reporting requirements can help
States to develop solid , comparable information capabilities. Second , concrete
reporting requirements could help to maintain a focus on this population , ensuring
that they not be lost in the overall spectrum of child welfare servces. Third , they
could allow ACF to better ensure that independent living funds are actually spent on
the target population , and are not diverted to other priorities (a point of greater
importance now that the program has grown in recent years to the level of $70 mion
annualy). Many State coordinators strongly endorsed a distinct reporting structure for
independent living.

The ACF could provide clear, specific , consistent instructions to States on aggregate
program reporting requirements before the        begig  of the reporting period. Clear
instructions could allow States to know specificaly what they need to report and give
them the advance notice necessary to collect information properly, through whatever
data collection systems they choose. These could also help to ensure consistency
among the various regional offces and the central offce--an issue of particular
importance now that regional staff have the responsibility for approving State
applications.

           Provide the States with a simple, standard form for reportng aggegate information.

A standardized independent living information form could improve the reliabilty and
uniformity of data ,   while minimizing the burden on the States. A number of State and
regional contacts suggested more structured reporting as a means of increasing the
usefulness and comparability of the information collected from State independent
living programs. This form could be either a free-standing reporting document or part
of a broader child welfare report.
                                   22 As ACF and the States move forward along the
information highway, such a " form " could actually become an electronic report.

A structured form might include certain standardied data elements , which we discuss
below. Standardized data elements might only tell part of the story, however.
Because of the great variety of approaches among programs , such a form could also
allow for additional quantitative or narrative sections for further explication of State€
efforts.

Although some initial effort would be required to develop a standard form , and
perhaps to solicit comments on it from the States , the long-term savings in time and
effort could be substantial. (See appendix C for examples of existing State forms.

           Utilize the capabilities of Statewide Automated Child Welfare Information
           Systems and the Adoption and Foster Care Analysis and Reportng System.€

The easiest way for States to capture the required aggregate information might be to
include independent living data elements in the new statewide automated child welfare
information systems (SACWIS), for which Federal funding has just been made
available. The SACWIS provides ACF with an unprecedented occasion to guide             State
information strategies; ACF could make concrete efforts to assist States in fully
including independent living information in those systems.

The SACWIS regulations call upon States to construct systems that will be " likely to
provide more efficient , economical , and effective administration " of their Title IV-
and IV- E programsP Full integration of independent living information into the
States ' data systems could streamline their data collection and record keeping
processes , as well as help to facilitate the actual integration of independent livig into
the spectrum of servces. An earlier evaluation of the Independent Living Program
also recommended the modification of " State and local information systems to include
information on independent living servces provided to youths as well as to track
youths ' skill attainment. "24

The ACF could encourage States to incorporate the standard independent living data
set , described below, into their individual SACWIS systems. At a mium , al States
will be required to include in their systems the basic data elements established through
                                                                             25 The
the Adoption and Foster Care Analysis and Reporting System (AFCARS).
requirements of this data system could fulfill several functions for independent livig,
including the provision of demographic data , the identification of eligible youths
(through age data and case plan goal), and calculations based on the number of
eligible youths (e. , the number receiving specific servces divided by the number
eligible). Independent living data collection could also be based on AFCARS
standards, such as point- in- time standards for reporting. As ACF considers future
refiements to the AFCARS data set , it might want to add a data element identifg
youths as participants in the Independent Livig Program; for now, the admistration
could encourage States to include such an element in their SACWIS systems.

       Encourage electronic reportng specifcally for independent living.

Many States may choose to incorporate independent livig data elements into their
overall automated chid welfare information systems , which could provide for easy
collection of data from the local level. The ACF could assist States in their aggregate
reporting of such information from the State level to ACF by developing and sharing
specialized independent living software and by allowing the electronic submission of
information.

Such an effort need not be expensive or overly sophisticated. A simple , standard
spreadsheet program , for example , could help all States to aggregate the required
information from the field and to submit this to ACF on diskette or on-line. Such
softare could potentially be used within States for internal reporting of information
that is not included in SACWIS from the field to the State coordinator.


Improve the content of independent     lig reportg:
       Establish a standard, basic data set for independent living.

The ACF could establish a set of standard data elements on which States would report
annually, in aggregate; these could be more precise and meaningfl than the data
currently collected. Such data elements could include basic demographic , servce , and
outcomes information. Some of these elements (such as demographics) would be
required to be included in the State Automated Child Welfare Inormation System
discussed above. Others (such as servces and status/outcomes) mayor may not be
part of such a system ,depending on each State s design. If individual States choose
not to include these elements in their SACWIS , they may have to conduct program-
specifc data collection activities in order to provide the aggregate information.

The ACF could provide clear instructions as to how such information should be€
collected and reported (including avoiding duplicate counts). It might also be useful
for ACF to provide States with model client-specifc data forms that they could use to
collect inormation at point-of-servce , district , or county levels.

As noted above ,   the data collection capabilities and approaches of the States vary
greatly; these variations must be borne in mind in developing any standard data set.€
Any restructurig of the data reporting requirements should be done with advance€
warng to provide adequate time for States to revamp their internal data collection
activities. In addition , State and regional contacts with whom we spoke urged that€
ACF look carefully at each data element to ensure that it is useful for national€
program evaluation and research.€

The National Independent Living Association (NIL) and some States have made
efforts at specifyg a basic data set. A number of professionals in the field , however
stressed the need for Federal leadership and direction in this area, and27
                                                                         the infuence
                                                                           The ACF
of Federal information requirements on State data collection activities.
could work with these groups in developing a data set, and could reexamie and refie
the data elements in the future. Ths effort would require an investment up front , but
could payoff in improved co=unication and understanding in the future. (See
appendix D for more detailed information on data collection.

       Facilitate the development of clear definitions of independent living tel7.

A lack of co=on definitions of terms presents a signcant problem in understandig
individual State program reports , in comparg programs among States , and ultimately
in detemIing what practices are effective. 28 As one State coordinator put it
 before we can start talking about post-servce outcomes , we have to build consensus
about the current servce interpretations and defitions of what we mean. Not
everyhing works just because we think it does. But right now we can t argue with
each other about what s working and what's not working, because we have a different
definition of what we re doing. " The ACF could playa useful role in facilitating that
consensus.€

Clear definitions would be vital for the development of a standard data set, as
discussed above. On both tasks , ACF could work closely with NIL. Again , the
necessary initial investment may well be justified by the improved utility of the
information collected. It should be noted that the development and use of uniform
servce definitions need not limit State flexibility in choosing   which   servces to provide.
             Collect more detailed budget data through the program reportng mechanism.€

To gain both closer accountability for funds and a better sense of program priorities
ACF could collect more detailed and uniform budget information. At a mium , this
might include a required breakdown by expenditures on administration , training, and
servces.

The ACF could also collect more detailed budget inormation on State-funded
servces , in order to gain a better sense of what is really being done for this
population. It could also be useful to receive more detailed information on the State
match and State maintenance of effort.

Because of substantial variation in how States finance independent living, ACF would
have to exercise care in comparing budget figures across States. Nonetheless , such€
information could raise signcant questions for ACF staff which they could pursue in€
technical assistance and joint- planning discussions with the States.€

            Solicit information on effective practices and innovations.€

Although many States currently provide extensive descriptions of their programs
including examples of their innovative practices , the free-form style of the program
reports makes it difcult to gain a comprehensive picture of such activities. The ACF
does not explicitly encourage States to detai their innovative approaches.€

The ACF could establish categories in which States could , at their option , provide
information on important activities that cannot easily be reduced to numbers. State
and regional contacts suggested a number of key areas of interest, including aftercare
mentoring, alternative living arrangements , interagency agreements and coordination
youth advisory boards , connections with co=unity resources , staff-youth relationship
building, staffng patterns , definitions of success , and outcomes measures. Standard
section headings in the program report could provide for a better national picture and€
for easier comparison among States.€


Focus on program performance and outcomes:


           Develop performance and outcomes measures for independent living.

Working with NILA, other national advocacy and research groups€31                     and the States


ACF could establish performance measures for independent living servces. Such
measures could help to ensure that efforts are focussed on providing the best servces€
and on achieving positive results for the youths being served. As one State
coordinator put it                   s vital to have clear information on progress and outcomes; a lot€
of open narrative assuages a lack of knowledge about how 
                well   you re   doing.

Performance measures could be focussed on key process areas as well as interim and€
final outcomes for youths.€
The ACF is giving substantial attention to performance measurement across its varied
programs; the development of measures for independent living could fit well with this
broader effort. In fact , the relatively new, distinct , and small nature of the program
might make it a good " laboratory" for the development and testing of performance
measures.

The ACF and the States could focus on a few measures at fist, and then refine and
expand these with experience. One possible area in which to begi measurig
                                         33 Possible measures could include the
performance might be educational status.
percent of youths completing high school before discharge , receivig financial
assistance for education , or voluntarily remaining in State custody beyond their 18th
                                                        34 (See appendix E for a list of
birthday in order to complete their educational goals.
additional sample performance measures.

Such an undertaking would not be easy. There is general agreement among
independent living professionals that performance measurement is a weak area. Many
States have no experience measuring performance or outcomes (beyond the minimal
required information at 90 days after servce). There are wide-rangig views on what
constitute successful outcomes for youths , and on how these can best be measured.
For example , one of the premises of the program is that it helps to prepare youths for
self-suffcient adulthood , free from public assistance. Several State coordinators and
consultants suggested , however, that in some cases the abilty of a young adult with
severe diffculties to access the resources of the welfare system should be viewed as a
success , not a failure. In addition , good performance measurement will require
reliable numbers , which many States are not now able to produce. There are
concerns that any such measures be accurately made and reported , to ensure valid
comparability.

Nonetheless , there is wide agreement that the development of performance measures
would be a important next step for the field of independent living. The ACF could
playa key role in facilitating the development of such measures.

       Establish general parameters within which States could define specifc outcomes
       and ways of measuring those outcomes.

State innovation has been one of the key sources of progress in the field of
independent living. By allowing States to defie outcomes and means of measurement
within defined parameters , ACF could both encourage States to thin concretely
terms of outcomes , and promote innovative approaches to outcomes measurement.

For example ,   ACF could require States to define specific , measurable goals in the
area of employment readiness. A State could choose to focus its efforts on providing
youths with job ' experience while in care , and could measure its performance in this
area by looking at the percent of youths who , at discharge , hold a job , have held a job
for at least six months , or have received a raise.
Whle this approach would have the advantage of promoting innovative strategies for
measuring performance and outcomes , it could hinder comparisons among States.
This deficiency could be alleviated through the establishment of standard areas for
action , and good information sharing on States ' experiences with specific measures.

            Focus on the statu of youths at discharge.

States are currently required to report on the " results          achieved 90 days after
participants completed the program. " As noted above , some States have provided
information on youths 90 days after discharge from custody, while others have looked
at youth 90 days after completion of a discrete independent livig program , perhaps
while they are stil in care. Most States have also experienced                difculty reachig a
substantial number of youths. To provide some consistency to                  these figures ,
                                                                             and to
reach a larger percentage of youths , ACF could require States to provide information
on how well prepared for independence youths appear to be                  at discharge.   Ths
approach could allow States to gather preliminary status/outcomes information on all
youths leaving care, and could emphasize the responsibilty of the entire child welfare
system--not just the independent living program--for youths ' readiness for adult lie.
The ACF could also provide guidance on appropriate methods for reporting such
information so as to avoid double counts and inconsistent statistics.

For those States currently providing inormation on youth                   (but perhaps
                                                                      after services


while stil in care), this approach could actually provide a look at youths further out
                                                36 For those States currently gatherig
giving a better picture of their preparedness.
information on youth    after discharge this new approach would allow them to get
information from the entire population of youth leaving care; they could also continue
collecting information from youth after discharge.

Valuable data at discharge might include youths ' status in areas such as educational
attainment, employment , living arrangements , famiy relationships , parenthood , use of
public assistance , and health. Given the customer focus of ACF' s reengieerig
efforts , it might also be worthwhile to encourage States to ask the youths to evaluate
the efforts made to help them prepare for independence.

Information at discharge would only tell part of the story; as noted in one State
internal evaluation                immediate program outcomes ,
                                                      measured right after program
completion , would not necessarily reflect long- term effects.'03 Nonetheless , good
information on all youths at discharge could provide a valuable piece of the overall
picture. The ACF could also encourage States to voluntariy continue efforts to reach
youths after care, in addition to the time of discharge , and could provide guidance to
ensure that such information is meaningfl and comparable.
           Encourage and assist State efforts to link independent living data systems with
       public assistance,  unemployment, criminal justice and Internal Revenue Service
           information systems.


The SACWIS regulations allow States to design their child welfare inormation systems
in such a way as to interface with other computer systems. The ACF could encourage
States to use this capability to track certain youth outcomes--for example, employment
status , use of public assistance , and interactions with the    crial
                                                                    justice system.
These should not be regarded as the only--or even the best--outcome measures to be
tracked. They would , however, provide a key piece of the picture.

Interfacing with such databases could pose some complex problems in terms of
confdentiality, and could require extensive negotiations with other agencies. If these
difculties can be overcome, however , this channel could allow for relatively easy long-
term monitoring of cohorts of discharged youths. The ACF could share information
on the successes of individual States , and could serve as a consultant to agencies
attempting to accomplish this sort of data matchig.

           Play an active role in independent living research.

As the Chid Welfare League of America has noted              to date , most information on
independent living is anecdotal. ...       Virually no recent objective national data   exist
on the effectiveness of independent living servces or on the experiences of youths
discharged from out-of-home care.
                                  ,,39 A number of the options outlied above would
help improve the quality of information on independent living that is collected and
available at both the State and national levels.

Many State and regional contacts with whom we spoke also noted the need for a
longitudinal study of participating youths. It is very diffcult to follow individual youths
after discharge , and such efforts require attention--and in many cases , expertise-­
beyond the capacity of most State child welfare agencies. The ACF could fi this gap
by supporting research projects that would provide better information on the
effectiveness of independent living efforts. The ACF could widely dissemiate the
results.

Studies of this sort could be costly. In the short term, ACF could consider giving
priority to such projects within existing research budgets. In the longer term
improved understanding of effective approaches to promoting self-suffciency could be
viewed as a wise investment in prevention.
TI ACF SHOUL FOCUS ITMAAGEM AN PROGRA
REPORTIG EFORTS ON INORMTION SHAG.
IsUE OF     CONCE:
The ACF has not actively facilitated information sharing among States, components of
ACE, and other Federal agencies. This lack of good communication may be limiting
opponunities for States to improve the quality of independent living services and for ACF
to provide effective advice to States and others on the program.

The ACF has not genera made avaable to States inormation it curentl collect
and to which it has accss.

The ACF collects program statistics and descriptions from every State through the
independent livig program reports and applications. The ACF also has access to
information related to other youth programs both within and outside of ACF. Whe
some regional offces have made efforts to share information among States , there is no
organized or centralied effort to dissemiate this inormation to States or withi
ACF.

Numerous regional ACF and State offcials reported that , in part because information
has not been shared effectively, they do not know why much of it is collected or what€
use is made of it. In fact, several ACF offcials , both at the central-offce and
regional-office levels , noted that program reports are rarely used. A number pointed
out that there appears to be no connection between the application and report at the
ACF-review level; many State offcials complained that they have never received
substantive feedback from ACF on either the application or the report.

The ACFs interactons with States about the progr aside from the report           and
applications, have been   lited.
In- person interaction with State independent livig staff has been minial. The ACF
has conducted on-site independent living reviews in only six States. Some regional
offces have attempted to visit programs in conjunction with other monitoring
activities , but such opportunities have been infrequent and brief. Both State and
regional offcials have found the few on-site reviews useful. Staff in only two regional
offces have coordinated or participated in regular meetings of the State coordinators
in their region.


Most ACF and State offcials with whom we spoke cited a need for greater in- person
interaction. Regional staff noted that they would like to visit more State programs
more often , but face serious budgetary restrictions on travel. A number of regional
staff also thought that the tye of regional meetings of State coordinators that are held
in two regions would be quite valuable in their own regions.
State and ACF offci      see substatial room for improvement in the program and
view more complete and     accte inormation sharg as key to such progress.
Al but one State and every regional offcial we spoke with felt that the State
programs would benefit from better information about activities in other States. Many
felt that being able to compare States , to learn from the best experiences of other
States , and to have a sense of barriers other States have faced would help improve
individual programs and the Independent Livig Program generally. Several felt
better information sharing could speed program improvements by avoiding long
development periods.

Many offcials in both States and regional offces felt that ACF has not adequately
shared information on available Federal resources for youths , including programs
inside and outside the Department. Some suggested that ACF would be a logical
locus for such information, and hoped that ACF central offce and regional offce staf
would develop expertise and capacity in this area.


OPTONS FOR IMROVE:

The ACF could capitalize on its investment in independent livig by effectively
gathering, analyzing, and sharig among the States inormation on the program
successes and diffculties. Such   activities could include research and evaluation
projects , an information clearinghouse , contracts for technical assistance , or   traig
and support for ACF staff to facilitate State efforts.

Below, we identify several specific activities that ACF could consider. Some of these
could be undertaken immediately and with no additional fiancial commitment.
Others would require additional funding. To finance such activities in a tight
budgetar envionment , ACF could seek a legislative set-aside that would reserve
some percentage of the Independent Living appropriation for these purposes. Whe
States would necessarily lose a small portion of their individual grants , they could
benefit substantially from the information sharing activities that these funds could
support.

Provde wrtten inormation to the States:

       Repon on State peiformance measures.

As suggested above , ACF could work with NIL other advocacy groups , and the
States to establish performance measures for independent living. In its information-
sharing role , ACF could disseminate an annual report on these measures , allowing
States to use the, information as an impetus for improving their individual programs.
Such a report might also be a valuable resource for other youth-focussed programs
outside of the Title IV-E Independent Living Program.
Compiling such a report could require a commitment of staff time and resources on
the part of ACF. The agency might also encounter political concerns about makig
direct comparisons among States. While most ACF regional staff with whom we
spoke believed that States would like to compare themselves directly with other States
a number of State offcials urged that they not be explicitly ranked against their peers.
There was strong interest among States , however, in hard data from which they could
themselves draw conclusions and seek answers.

The usefulness of such a report would depend largely on the usefulness of the actual
measures used. First , it would need to be a concise, focussed set of measures.
Second , it would require clear agreement on the meanig of terms and the methods of
measurement. One State coordinator urged let s not provide numbers that don
mean anything. " Timeliness would also be key.

       Disseminate qualitative updates on State activities.

One State coordinator pointed out that " information sharing is the way to get people
thinkig; " ACF could disseminate useful information on a variety of aspects of
independent living servces.

Such materials could include compilations of State independent living policies and
plans , with annual updates ; State- identifed inovative areas or effective practices;
and State- identified problem areas. State contacts suggested several specifc areas in
which they would like information from their peers , including aftercare , mentoring,
alternative living arrangements , interagency agreements and coordination , youth
adVisory boards , community resources , outcomes measures , definitions of success
staffng patterns ,   and in-State evaluation efforts.

The ACF could also explore ways of providing such information by computer, perhaps
by linking with NlLet , the National Independent Living Association s computer
bulletin board system. All members of NIL have access to this network, but ACF
does not currently make use of it.

       Share model form      and directories of available resources.

It could be very useful for ACF to share with the States model youth needs assessment
tools , model transition plans and case plans , model currcula , and lists of resources
available from other Federal agencies. State coordinators noted that consultant fees
for the development of such materials can be quite expensive , and pointed out that
many such materials have already been developed in individual States through Federal
Title IV- E funds. In the future , ACF may wish to contract for the development of
such materials directly, and widely distribute them among the States.

The ACF' s efforts in this area might be constrained by resource limits. At the same
time, such sharing could prevent unnecessary duplication of effort , and therefore
expense , among different States.
Facitate inormtion sharg though ACF sta:
       Develop a focus for ACF youth programs in central offce and each regional offce.€

Several regional contacts identified a lack of coordination on youth servces in ACF'
central offce as a serious problem. They recommended that the youth programs
currently in the Family and Youth Servces Bureau , including the Runaway and
Homeless Youth (RH programs , be brought into the Chidren s Bureau; the
administrative structure should follow the needs and the population , they argued, not
the fundig stream. Staff in one regional offce, in which the same branch admisters
both the ILP and the RHY programs , noted that this organization encourages them
 to thi   comprehensively about the needs of older adolescents. " At a mium, they
urged that there be better coordination in central offce between the two branches.
One regional staffer stressed that memoranda of understanding out of central offce
would make it easier for the regions (and the States and grantees) to forge
coordination and collaboration with other programs.

At the regional level , State offcials with whom we spoke would like to see program
specialists playa more consultative role through the provision of techncal assistance;
this is indeed the role that ACF itself is seeking to fill. To play this role well , ACF
staff need to be experts in youth issues. One solution might be to designate a full-time
youth specialist in central offce and in each regional offce. These specialsts could€
oversee , or at least coordinate, all youth-focussed ACF programs. To properly fill
such a position, a specialist might need trainig in the area , and might need to attend
relevant national and regional conferences. In addition , traing could help to ensure
a certain level of consistency among regions.

The regional youth specialists could be catalysts for bringig together people from
different States-- for example , in quarterly coordinators ' meetings. They could also
facijjtate monthly or quarterly conference calls among State independent living
coordinators and other State , Federal , and private youth-servng agencies; these could
prove to be both productive and cost effective.€

At both the central and regional levels , it could be valuable for ACF to have an
understanding of its programs from the perspective of the clients they seek to serve.
The ACF could establish some means of getting direct youth input , perhaps through
youth advisory boards ,   such as many States have established.

These different activities could require varyng levels of commitment. It could be
possible , for example , to designate a youth specialist in each region , but not increase
opportunities for attendance at conferences. Changes in the organizational structure
of the central or regional offices might likewise be accomplished as part of the
Department's overall streamlining and reorganization activities.
       Incorporate independent living issues into other child welfare monitoring activities.€

The ACF is currently exploring ways of addressing independent living in broader chid
welfare monitoring activities , including Section 427 reviews. This would allow ACF
staff regular occasion to interact with States on-site with regard to independent livig,
and to share information. In reviews of case fies , ACF staff could check that
appropriate steps have been taken for youths , including appropriate case plan
documentation. In addition, ACF staf could use site visits to Runaway and Homeless
Youth grantees , many of which also conduct independent living activities, as
opportunities to explore relevant issues. Such reviews would be focussed on€
information sharing, not compliance.€


There could be several potential drawbacks to this approach. The ACF staf
conducting general child welfare monitorig activities might not be well informed
about independent living issues , and might have limited ability to provide constructive
advice to the States. More broadly, independent living could be given lower priority€
than, for example , child abuse and neglect issues. The ACF might want to take steps
to ensure that independent living is indeed accorded adequate time and emphasis in€
such monitoring activities.€

       Become a resource on other Federal programs serving youths, and facilitate€
       coordination among these and the Independent Living Program.€

The ACF staff could playa valuable role as resources for information on servces to
youths , and could facilitate coordination at the Federal , State , local , and servce­
delivery levels. One regional staff person suggested that ACF specialists , if well
informed , could help State staff to broker interagency relationships and to negotiate
the use of resources from other governent agencies. He felt that this role could be
helpful even at the county or local levels.€

While such an approach might entai increased costs or commitment of staff time, a
move in this direction could be viewed as a solid investment in improved and
streamlined servce delivery. It is a concrete example of how ACF could€
operationalize its vision for a proactive monitoring and technical assistance role.
 COMMENTS ON THE DRAFT REPORT€
We shared our draft report with and solicited comments from the Administration for
Chidren and Families (ACF), the Assistant Secretary for Planng and Evaluation, the
Assistant Secretary for Management and Budget , and the Assistant Secretary for
Legislation. We also solicited co=ents from the Chid Welfare League of America
(CWL) and the National Independent Livig Association (NIL).€
We received wrtten co=ents from ACF and from CWL and NIL. They all
concurred with our two reco=endations and did not suggest any changes to the
report. The CWLA and NIL also commented favorably on several options we
offered for each recommendation. We reproduce these co=ents in appendix F.
                            APPENDIX A€
                              LEGISLATI HITORY€

Law            Major Proions€
 L. 99- 272    Added Section 477 to Title IV-E    of the Social Securi   Act:   FY 87: $45 m
(COBRA 85)                                                                      FY 88: $45 m
               . Allowed payments to States for independent livig servces
                to IV- E foster children for FY' s 87-

               Amended Section 475 of Title IV-€

               . Required that , where appropriate , the case plans of
                children age 16 and over include a written description of
                the servces that will be help them to prepare for
                independent living
 L. 100- 647   Amended Section 477:                                             FY 89: $45 m
(1989)
               . Continued program through FY 89

               . Alowed States to elect to servce non-IV- E foster children

               . Alowed States to elect to provide follow-up servce for

                 up to 6 months after discharge from foster care€
               . Prohibited payments for room and board€

               Amended Section 475:

               . Required that dispositional hearings for children age
                 16 and over address the servces needed to assist in the
                 transition to independent living
 L. 101- 239   Amended Sections 474 and 477:                                    FY 90: $50 m
(OBRA 89)                                                                       FY 91: $60 m
               . Reauthorized program for FY' s 90-                             FY 92: $70 m
               . Increased annual funding levels
               . Required States to provide dollar- for- dollar match for
                 funds over each State s share of the $45 m base funding

 L. 101- 508   . Appropriated FY 91 funding                                     FY 91: $60 m
(OBRA 90)      . Exanded eligibility to children formerly in foster care , to
                age 21 (also eliminated provision allowing for servce up
                to 6 months post- discharge)€
 L. 102- 394   . Appropriated funds for FY 93                                   FY 93: $70 m€
 L. 103-       . Permanently reauthorized the program                           $70 m per year€
(OBRA 93)€
                              APPENDIX B€
                                     METIODOLOGY

We have drawn upon five primary sources of information:

       (1) A review of program reports for fiscal years (FY) 1992 and ' , and
       applications for FY' s 1993 and ' , from all 50 States and the District of
       Columbia; and a sample of State fiscal reports (Standard Form 269).

       (2) Structured telephone discussions with independent living coordinators in
       ten States: Vermont, New York, Florida , Ilois , Texas , Missouri , Colorado
       California , Arzona , and Idaho. These States were selected to reflect diversity
       of geographic setting, size, population , adminstrative structure , and program
       approach. Our choice was based     upon both our fie review and input from
       ACF, the National Independent Livig Association , and a variety of
       professionals in the field.

       (3) Structured discussions with ACF staff in central offce and each regional
       offce.

       (4) An in- depth site-visit to Pennsylvania to meet with the independent living
       coordinator, technical assistance and evaluation staff, county-level staf, and
       staff at a private youth-servng agency. Ths State was selected based on input
       from a variety of professionals in the field as an example of a large , county-
       based State with a well- developed information-reporting system.

       (5) A focus group and discussions with State coordinators and other
       professionals at the annual conference of the National Independent Livig
       Association (NILA) in March 1994.€


In addition , we conducted informal visits to the Massachusetts and Connecticut
independent living programs; attended a meeting of the independent living
coordinators in Region I; held discussions with consultants , academics , and advocates
in the field; reviewed legislation and literature on independent living; and examined
ACF program information and directions. We also spoke informally      with participating
youth from Maine , Pennsylvania , Louisiana , and Arona.
                              APPENDIX C€
                      SAMLE DATA COLLCTON FORM

On the following pages , we present several examples of data collection forms that
have been developed by individual States; We present these as ilustrations of the
range of approaches and capabilties across the country; we do not specificaly endorse
these approaches or formats.


Client-level reporting forms: The first three forms are used to collect information on
every youth participating in the respective States ' independent living programs. Every
county or district , and every contractor, must complete such a form for each youth and
submit it to the central State offce, where the information is aggregated and analyzed.

      Example A, page C-                   Minnesota

      Example B , pages C- 3   to C-       Kentucky

      Example C , page C- 7                California


Aggregate-level reporting forms: The fourth example is used by a county-based State
to collect aggregate information from each county regarding the servces being offered
and the number expected to be served. The fifth example , also used by a county-
based State , solicits year-end information on youth served.

      Example D , pages C- 8   to C- I0:   Pennsylvania

      Example E, page C- ll:               California




                                           C - 1

     ======= ====:=
~~~ ~~~~~~~~~   ~~~~

                      SELF Client Data€
                                                                                                           . Date. oIBirtlt.                              County Infoalion-
              Complete form on all youth served.                                                          ! Montn I Day i Year                     Coumy Number:€
                USE NUMBER TWO PENCIL.€                                                                                                                                        f :I
                                                                                                                                                                               i.-€
                     Please do not fold                                                                          Q)!    O: 0        ''0: Ut
                                                                                                                                                                               3-: :.
                                                                                                                CIII T:Irt
                                                                                                                       ::2-= -      x a:
                                                                                                          ' :a X                   ;L :JJ                                      5:- cr

                                                                                                                (I-                                                            6; oJ
                                                                                                                                                                              Ice€
        CE          (E    :A. K)      (A;E IE (E, (K;       (F,   X IE IE IE iX: . A; eEl                       '1               €,(JCI                                        () (I€
                                                                                                                                                                              J) (I€
   (j (j'E (j() (j (j(i (j (j (j (j (j                                   CI CI (I (j) (9 tEl€                                    7; :D

                                                                                                                CI               ') CI il          County:€
                                                                                                                IE                'CDm€
               zw(jw(jWWWW(jWWW€                                                                                                                   Worker:€
              X(j(jroro(i(jrorororo(j(jrox €
                                                                                         x x€
        ff r
                                                                                                                                                   Date:€

                                                                                                                                                             Race/Ethnicity€
        (jE (j(j CI (j(j (j (j (lD (j(! (j (j(j ar (j ar
11 (j
   X I I TII           mXmImm                                                     XmI                                                                   - ASian
                                                                                                                                                                    Amencan
J) a;   XI
         Q; XQ;. x Q)X mx  Q; XXXXI

                                                                                  XE
                                                                                                                                                        : African
                                                                                                                                                        = Hispanic
mOOOOy   EEOOE       OOOO€
                                                                                                                                                        -= American Indian€
                                                                               OOOO€                                                                   = White

(!(j(!E(!(j(!(!(!(!(j(!(!(!(!(!(!(!(!€                                                                                                                  - Other

    ZW(j  (j(jW W(j(j(j(j(jm€                                                                         Was Youth Served by a
                                                                                                      SELF Grantee? II so,
mmmrxmmmmmmmmmmmmmm€
m(j   (jWWWWW=W(j(j W(jWE€                                                                          ; Agency
                                                                                                    ! Name€                                            '= Male
CI(!(!€                                                                                                                                                 = Female
   (j (j (j (j CI (j (j (j (j (j (j (j (j (j (j (j (j

        mImTmmmm                                            mmmmmmmm                                                                                        Placement Status
              $$$W          WWW             WWW
                                                                                                          '.I                                           .: State Ward
   OO 00 Y          000000000000000000 mrnoooooornoc                                                                             FOR
                    wwwwwwwwwww                                                                           (1 CD
                                                                                                          .: a;             STATE
                                                                                                                                                       .: Voluntary Placement

   oo oc x x oc xoooooooooc oooooooc xoox                                                                                    USE€
                                                                                                                                                          Court Ordered Placement

        T Y               T m                  m 00 m oc          00 m            m rn                     :Det€            ONLY€
                                                                                                                                                          RUM€

                                                            ro x x
                                                                                                          ':!/II€                                       - Not in Placement€
   X X Z x z x


                                                                                                                                               Total Time in Substitute Care
                                                    Services Provided to Youth
                                                                                                                                                 0:6 months          = 3- 5 years
                                                                                                                                              -= 6- 12 months        .: 5- 7 years
   = ILS Group Training                                                  '= Educational Referrals/Expenses
                                                                                                                                               :: 1.   3 years       -: :: 7 years
   = RetreaVConference/Workshop                                           .: Job Experience through SELF
   :: IndividuallLS Training                                             -= Purchased Goods. Not for School
                                                                         -= Stipends/Incentive Payments€                                                     Scltool€
   = Camo/Adventure Challenge
                                                                                                                                              .: "iaduated High School
        Driver's Education                                           :: Other
                                                                                                                                              :. Dropped Out of High School
                                                                                                                                              = Comoleted GED
                                                                                                                                              = Working on GED

   Disabling Condition 01 Youtlt                                                 Current Living Arrngement.                                    = In Special Ed Program

                                                                                  Foster Home                                                  = In Alternative High School

                                                                               -: Group Home€                                                  = In Regular High School
   = Develoomenral Disabilities
                                                                                 ResidenLiai Trearmem                                          .: In College
   .: He:!!"lng Speech/Sight                                                                                                                  :: In VoTech
                                               Disability                      - Emergency S € helter
    : Scecijjc Learning
   -= Emotional/Behavioral Disability                                          -= Correctional Facility
                                                                                                                                              Highest Grade Level Completed
   -= Chemical Deoendency -€                                                    - Birth Pareml s:
                                                                                                                                              = 8 - 11
   = Other
                                                                               -= Relatives
                                                                                  Indeoenaem€                                                  ::. 10
                                                                                                                                                   9 : 13
                                                                                                                                                       12
                                                                                                                                                                           -: 14
                                                                                                                                                                           .: 15
                                                                                                                                                                            - 16
                                                                                  Other€
DHS 3091 (7- 93)


                                                                                         r-€
                                                                                 INDIVIDUALYOUTH€
 INDEPENDENT LIVING DATA COLLECTION -
                                      DEMOGRAPHIC DATA€

                                                      PARENTAL STATUS:

 NAME:€
                                                      NUMBER OF CHILDREN:
 SSN:€
                                                      NUMBER CHILDREN LIVING WIT           YOUT:
- DOB:

                                  Female              HIGHEST GRADE              COMPLE: 9 10     11 12
 sex:               Male                                                          GED   College 1 2 3 

                                                      Vocational 1 2
 MARITAL STATUS:                                      PlACEMEN HISTORY:€
                          Hispanic     Asian            Total time
 RACE: White Black                                      Number of entries:
          Native American  Other
                                                        Number of placements:
                                                        Living arrngement:
 DISABILITY: (Specify)                                  Date into IL program:


                                     PROGRAM COMPONENTS

                                                      INDEPENDEN LIVING SKILLS TRAINING
 EDUCATION:€                                             Basic skills assessment
   Tutoring/Remedial education
                          Interpersonal skils 

    GED classes
                                         Communications skils 

    Driver education                                     Self-esteem skils 

    Higher education                                     Decision-making skils 

    Vocational Assessment                                Values clarication skils 

    Special vocational training                          Time management skils 

                                                         Educational planning skills 

  EMPLOYMENT€                                            H""s"'" "Lcils 

      npl::yme-+
              I a..€ - :.c:L .
                                                         Emergency and Safety skiiis€
    Job placement                                        Hygiene skills€
    Employment€                                          Personal appearance€
    Employment (subsidized)                              Leisure time€
    Length of current employment:€                       Legal issues€
    Length of previous employment:€                      First aid€
    Jobs held:                                           Money management€
    Type of jobs:                                        Job hunting

                                                         Transportation€
  SUPPORT GROUPS                                          Cooking€
     Peer groups                                         Shopping€
     Transition manager                                  Housekeeping€
     Youth networks€                                     Apartment living
                                                         Transitional living 


  SPECIALIZED SHORT TE;RM PROGRAMS                       Community Resources
     Team- Building Retreats                             Consumer skills
     Teen Conferences

                                               c- 3     ROI€                               D2€


 DisctAgenc€
                                                DISCHARGE SERVICES (CONTINUED)
STIPENDsJSCHOL6SHIPS€                                Personal information packet
   Youth stipends
                                                     Discharge conference€
   Start-up assistance
  College stipends
                                                SUPERVISED PRACTICE LIVING
  Scholarships€                                      IL foster home
                                                     IL group home
DISCHARGE SERVICES€
                                                     Transitional group home€
   Individual counseling
                                                     Transitional living apartment
  Group counseling€                                  Teen parent services
  Securing permanent housing Y
                                 POST DISCHARGE SERVICES

                                                OTHER€
VOLUNTERS/SUPPORT GROUPS€
                                                     Health exams€
  Guardianship for youth with
             limited abilities
                                                     Dental exams€
                                                     Health insurance€
   Mentors€                                          Financial assistance
   Support groups€                                   Referral service
   Drop-in center€

                                          FOllOW-€

                                             90 DAYS       6 MONTS       1 YEAR      2 YEAS
                           IL TRAINING€
DATA ITE
                           COMPLEION€
                                                                            AFR      AFR

GED€

High School Diploma

Vocational Training


Obtained Housing

 Employed€

 Independent of Agency

 Individual Counseling

 Group Counseling

 Budgeting€

 Housing€

 Career Planning


                                            C - 4€
                                                                                    . . ..


                          INDEPENDENT LIVING DATA€
              Instructions for Completing Data Sheets for Individual Youth€

                                  DEMOGRAPHICS

NAME:
                                         Youth' s first name, middle initial, and last name.
                                         Do not forget to include the middle initial.

                                         Youth' s social security number.
SSN:

D08:                                     The month, date , and year of youth' s birt.

SEX:
                                         Circle appropriate gender.

                                         Circle S (Single), M (Marred), or D (Divorced).

MARITAL STATUS:


RACE:
                                         Circle appropriate race.€

DISABILl1Y:
                                         The following conditions are included in this item.€
                                         The conditions must be " clinically diagnosed.€
                                         Developmental disability, Emotional disabilty,
                                         Specific learning disabilty, Hearing, sight or
                                         speech impairment , Physical disability, other€
                                         clinically diagnosed conditions.€

PARENTAL STATUS:€
                                         This item refers to whether or not youth have
                                         children of their own.

NUMBER OF CHILDREN:€
                                         The number of children youth has, whether or
                                         not child lives with the yout.

NUMBER OF CHILDREN€
                                         The number of the yout' s own children
   LIVING WITH YOUTH:€
                                          living with the youth.

HIGHEST GRADE COMPLETD:
                                          Circle appropriate grade level.€

PLACEMENT HISTORY€
        Total time:

                                          The total number of months/years the yout was
                                          in foster care , (excluding time spent at home), at
                                          the beginning of the program.

        Number of entries:                This item includes the total number of re-ntries
                                          (including the initial entry) that a youth has had.
                                          A re-entry into substitute care is counted if the
                                          youth re-enters substitute care after having been
                                          formally discharged from substitute care with the
                                          intent of permanently placing the youth in an in-
                                          nome living arrngement.



                                        C - 5€
                                                                         The total number of different placements (living
           Number of placements:
                                                                         arrngements) youth has had while in care.
                                                                     . This item refers to the   living arrangement for the
           Living Arrangement:
                                                                         youth at the time of entry including: Emergency
                                                                         Shelter, Non- Relative foster home,. Relative foster
                                                                         home , Pre-Adoptive home , Group Home, Drug
                                                                         Rehab Program, psychiatric Institution, Residential
                                                                         Care Facilty, Secured Facility (Detention),
                                                                         Independent Living Arangement.

                                                                         The date the youth began the IL Program.
           Date into IL Program:



                                                    PROGRAM COMPONENTS
                                                                                                                                  yout recived
These items refer to training or services offered by your program. Circle Y (Yes) if €
the training or service component. Circle N (No) if youth did not receive the training or service.€
Circle NA (Not Applicable) if your program does not offer the training or service component.


                                                   POST DISCHARGE SERVICES

These items refer to services received by youth after being released from committent, although
some of the services (particularly guardianship and mentors) are ,usually  initiated prior to the
                                                                     even before release , please
youth' s release from care. If the youth has been paired with a mentor
circle Y.



                                                                  FOllOW-
                                                         completion of your program , and at
These data items refer to the status of the youth atThey
                                                     the require Y (Yes) or N (No) answers , in
selected time intervals afer completing your program.                                                   , if a youth has obtained a GED or
terms of items completed at the specified time interval. Thus                                                                , is employed,
high school diploma  , completed vocational training, obtained housing                      Y" in
independent of the agency, has received individual counseling or group  counseling, put  a "
                                                         , put an " N" in the appropriate box. If
the appropriate box. If the                youth has not obtained the items
                                                                         , put an " N" in the appropriate box.
a youth is in the process of obtaining the items
                                                                                                                        Were the yout trained in
The last three items refer only to training received  In your program.
                                                 , answer "Y" in the column labeled " IL Training
                                            If so
budgeting, housing and career planning?                   , answer "                                                  . Leave   all other columns
Completion . If the youth were not trained in these items
blank for these three items.


                                                    the bottom of the first page, indicating your district
                                                                                                                                         or     agency
                                              at
Remember         to   fill in the blanks
                                                                                                   please call Mike Yocum
                                                                                                                                    at        (502) 564-
name, your name, and the date. If you have any questions
2136, Thank you for your help in obtairiitg this data.

                                                                c- 6
                                                                                                                                              DEPARTENT OF SOAL SERVES€
STATE OF CAUFORNrA . HEALTH AND WELFARE AGENCY€
                                                                                                         CUENT NAME


INDEPENDENT LIVING SKILLS PROGRAM€                                                                                             FCIS CASE NUMBERJNIOUE J.D.€
                                                                                                         DATE€

INDIVIDUAL CLIENT CHARACTERISTIC DATA€

01 CUENT PROFILE:€                                                                                       DECUNED ILSP SERVICES (DATE)€
IV-E ELIGIBLE:                       ACCEPTD ILSP SERVICES ((DATE)€

        D Ves         DNa€                                                                                         TRAINING GOAL:€
PARENTAL STATUS;
                                     Expectat Father

                                                             SPECIAL NEEDS:€                                                                         o Voc 


                                                                    Educational           OMental                      o HS Diploma€                     College€
             Childless                Expectant Mother

                                                                o Medica                      Physical                 o GED
                            Adult Ed€
             Parent               Children€
02) ILSP DIRECT SERVICES TO BE                    PROVIDED        (as appropriate):€
Access to Communitv Resources€                                                      IntemersonaVSocial Skills€
Consumer Skills€                                                                    Mone Mananement€
Healih Care€                                                                        Parentino€
Home Manaoement€                                                                    Time Mananement€
HousinQ Options/Location
                                                           Transnnrtation€
OTHER (SPECIFY€


                                                                    TURING (TORING SERVICES FOR A YOU WHICH ARE NOT REOUIRED TO BE PROVIDED THROH" SCHO DISmlCT.):€
COUNSELING:€
        o Group                      Individual                                o Group 0 Individual 0                                Personal Computer Tutori      Pace€
EXIT PACKET CONTNTS:     0 Birt Recrds                   0 Community Resource Listing                Educational Certfication            Health Records€
                                                                                                                                         Other€
(OPTONAL)€
                             Placement Recrds                  Security Care
                                                         D Social                                 o Work Registration€

03) CLIENT OUTCOMESITERMINATION:
                                                                 co,,,mD VO ED (DATE€         SUCCESSFULLY COMPLETD AD\AT EO (DTE

AWAROEO HIGH SCHOL OIPLO,, (DATE I AWAROED GED (OATE
                                                                                  I SUCSSFULLY €
                                                                          SCHOOUGEDI ED ENROLLMENT (DATE
                      ENROLLED IN ADVANCED SKILL     TRNNG (DA'T€
ENROLLED IN COLLEGE (DATE
                                                         I CONTNUED HlGH €
                                                                                                                               ENTED MIUTARY (DATE€
EMPLOYED€

                                              Activelv Seekinn                             Entered Job Corps€
        o FT 0 PT
UNEMPLOYABLEiSI ELIGIBLE (DATE€

                                                                                  I UNEMPLOYED.TOT ACTIVELY SEEKING€

UNEMPLOYED (NOTE PROBLEM AREA(S)€


                                                             YOU NO LONGER IV- E EUGIBLE (DATE)             LIVING INDEPENDENTYOFAGENCY MAINTNANCE PROGRAMS (DATE€
YOUT CONTNUES IN ILSP€


                                                                               DID NOTOBTAIN OTHER COMMUNIT SERVICES (NOTE PROBLEM AREA(S)€
PERSONAL SERVICES CONTCT WITH THIS
YOUT (ATTACH COPY)€

HOUSED ODENTFY TYPE)€



RETRNED TO FAMILY(DATE€


                                                                                   MOVEDIWEREABOUS UNKNOWN (DATE€
TRANSFERRED TO ILSP IN ANOTHER COUNT (DATE



04 90- DAY FOLLOW- UP AFTER TERMINATION includes termination of services due to cessation of outside fundin .€
                                                    TELEPHONE (DATE) MAIL (DATE€
                                  FACE.TOFACE (DATE
MODE OF CONTACT:€
                                  MOVED                          OTHER€
FAILURE TO CONTACT:€
CASE VIGNET. SUMMARY





                                                                                                                               DATE€
SUMMARY COMPLETED BY:€




SOC3.   (l16S)€
                                                                               C -€
  . .




                                         DEPARENT OF PUBUC WELFARE€
                                     OFFICE OF CHILDREN, YOUT AND FAMIUES


                                  TITLE IV- E lNDEPENDENTUVING PROGRAM
                                       NEEDS AND SERVICE PROJECTION

COUNT:


       SERVICE NEES€              RECEIVE                        lL SERVICE               RECEIVE

                                               IV- E PM          PROJECTON                IV- E PM    IV­

                                  IV- E PM
1. AU chidren In
       .aement
2. Yout In p!8Dement
  16    I'. of.   .Aalder
3. Yout turning 16 Y". of
        durin the rant      ..r
4. Oter yout who could
  benefR from IL

                                     SUMMARY OF PROPOSED IL PROGRAM


  accom

                     A. Needs Asssent/Cas Planning                   J. Practce Il Placement (Sll)
                     B. Lie SkiDs Traning                            K. Loon of pennanent Housing
                     C. Vocational Training.                         L Stpends for Yout
                     D. Remedial EducatonlTutorig                    M. Afercar Servces
                     E. Preparion for GED
                           N. Servces for Teen Parnt
                     F. Individual or Group Counseling
              O. Retats/Camps
                                                                     P. Indire Services
                     G. Asistance in Obtaining Higher Ed.€
                     H. Job Placement                                Q. Progrm Administon
                     I. Subsidized    Employment                     R. Oter: (Specif below)




         Letter (s) of
II. PROVIDERS OF SERVICES .CHECKED IN I. - SERVICES TO BE

. Servce s Checked
                                                                      PROVIDED
                                                                 Provider




                                                                                                     CY-806
   Jun-92
                                                          c- 8
                                                                                                 Page 1 of 2€



   TITLE IV- E INDEPENDENT LlVI             NG GRANT              COU€
                PROGRAM DESCRIPTION                             . PROVIDER:€

                                                                 Complete a separe sheet for each provider.€
B. Life Skils Trainin€
I. f:ow     many youth wil receive lie skils training?€
                   Total #             #IV-€

II. Show the total number of hours of life skils instruction each IL€
participant receives.€
                Hours€
III. How is training provided?€

           Individual                  Group                             Both€

If "   Both" was chosen, show the percent of time for each. Use the hours in II€
as the basis for the calculation.€
                % Individual                                         % Group€


IV. From the list below and on Page 2 of this form, identify the subject€
areas covered in your life skills training course. Check as many as apply.€

Financial Responsibility              Vocational Skils€

            Budgeting                                             Aptitude/Interest€
            Banking                                               Job Seeking€
            Personal Identification                               Job Interviewing€
                                                                  Work/Dress Habits€
                                                                  Job Retention€


Consu mer Skils                       Community Resources€

            Shopping                                              Public T",n,porttion€
            Nutrition                                             Health Care€
            Food Preparation                                      Human Services Access€
            Contracts/Leases                                      Legal Services€
           Apartment Location€




                                                       c - 9€
                                                                                            Page 2 of 2



  TITLE IV- E INDEPENDENT LIVING GRANT                    CQUNI
                                                          PROVIDER:
          PROGRAM DESCRIPTION
                                                         Complete a separate sheet for each provider.

B. Life Skils Traininn (Cont' d.\


Interpersonal! Communication Skils
         Problem Solving
         Decision Making
         Self Esteem'"
         Human Sexuality
         Impulse Control
        Assertiveness
        Individual/Group Interactions


c= Life Skils Practice (Structured)
        If practice is described elsewhere, just
        cross-reference here.

        Other - Describe




V. How many youth wil practice IL Skils?

              otal #                IV­


VI. Estimate the total cost of providing life skils training. Include in the estimate the
   cost of staffto provide the training, the cost to purchase the training, training
   materials and supplies and transportation to get youth to and from training.
                                                                             809.
  The amount of the estimate should agree with the amount on the CY-
  Do not include Aftercare Life Skils Training costs here.




                                          C - 10
                                                                            ...............................................................................
                                                                                         .........................................................................
                                                                                                                                              ........................
                                                                                                ......................................................................
                                                                                                                     ........................
                                                                                                                                   ............... ............ ......


                                                                                                                                                                         DEPARTENT OF SOIA SERVCES
 STATE OF CALIFORNIA. HEALTH AND WELFARE AGENCY

                                                                                                                                                         Send One Copy 10:
                                                                                                                                                            Depaem of Social Servces
INDEPENDENT LIVING PROGRAM (ILP)                                                                                                                            Stanstica Servces Bureau
                                                                                                                                                            744 P Street, M. S. 19-81
Annual Statistical Report	                                                                                                                                  Sacramemo CA 95814
Federal Fiscal Year 1990                                                                                                       COUNTY                                               CODE
(October 1, 1989 through September 30, 1990)
                                                    PART A: YOUTHS SERVED AND CLIENT CHARACTERISTICS

      Youths to whom IlP services were offered during the year.

       Youths who received IlP services during the year........................................................

             Youths who are single............................................................         2a

              Youths who are married............................................................ 2b

      Youths who are parents......... ................................ ............ ............ ..... ............

4. Youths who have special needs which are educational , medical, mentai ,                                    and/or physical in nature................

      Youths who received IlP services during the six month period following exit from loster care ........................



                                                           PART B' PROGRAM OUTCOME/CLIENT PROGRESS


      Youths who completed IlP services or a component 01 services

      Youths who are continuing to receive ILP services 


      Youths who completed high schooVGED or adult education............................................................................


      Youths continuing and/or currently enrolied in high schooVGED or adult education.........................................

10. Youths who have completed vocational education or on- the-job training .......................................................

11. Youths continuing and/or currently enrolied in vocational education or on- the-job                                    training ................................

12. Youths enrolled in college............. ......................... .......... ......... ................ .......


13. Youths who obtained e her full- time or part- time employment ........................................................................

14. Of the number of youths reported in Item 13 above, those who are mimary or Job Corps enlistees.................

15. Youths actively seeking empioyment . ........... ........... ............

16. Youths determined unemployable , SSI eligible, or other similar special category ............................................

17. Youths who are living independently of agency maintenance programs ...........................................................


18. Youths who obtained housing and other communit servicas...........................................................................

19.	 Youths for whom no information could                              obtained.....................................................................
                                                                                                                TELEPHONE NU"BER                                         ATE
PERSON TO CONACT




ro 040SA (6190)                                                                          C - 11

                            APPENDIX D€
                            SAMLE DATA

In the body of this report , we propose that ACF could develop a standard set of data
elements to be reported on each youth participating in independent livig servces , to
be reported annually, in aggregate. We suggest that ACF could encourage the States
to include many of these elements in their new SACWIS systems.

On the following pages , we present some examples of the tyes of data elements that
ACF might consider adopting. We have divided the information into three categories
(demographics , servces , and status/outcomes), and present the data elements , the
reporting timeframe, and the source.

These suggestions build on reco=endations to us by the Data Collection Task Force
of the NIL as well as the current ACF data requirements.




                                        D - 1

I DEMOGRAIDCS
  Element                                At what point in tie:
     Sour:
# 16- 17 year olds in substitute care
   cumulative , end of year   SACWIS/AFCARS


# 16- 17 year olds with a goal of
       cumulative , end of year   SACWIS/AFCARS
independent living
# 16- 17 year olds for whom              cumulative , end of year   ILP data
independent living servces are
considered " appropriate
# 16- 17 year olds who participated      cumulative , end of year   SACWIS
in independent living servces
# 18- 20   year olds stil in care who    cumulative , end of year   ILP data
participated in independent living
seIVces
# discharged youth who returned
         cumulative , end of year   ILP data
to receive independent living
seIVces
# of those participating of each         cumulative , end of year   SACWIS/AFCARS
race/ethnic group (W, B , A, H, AI

# of those participating of each
        cumulative , end of year   SACWIS/AFCARS
sex (M , F)
# of those participating with a
         cumulative , end of year   SACWIS/AFCARS
disabling condition
# of those participating who were        cumulative , end of year   SACWIS/ILP data
      eligible
length of time in care of those          cumulative , end of year   SACWIS/AFCARS
participating




                                              D-2
SERVICE
Element                                          At what point in tie:
    Sour:
educational assistance€                          cumulative annual total   SACWIS or
                                                 participating             ILP data
 tutoring
 stipend/scholarship                                                       (depends on design

                                                                           of each State
                                                                           SACWIS)
employment assistance

 jObPlacement
 job apprenticeship

 job mentoring
group life skill training
 (listoftoPiCS)
formal , individual life skill training
 (listoftoPiCS)
pre- discharge financial           assistance

(non-school stipend)
post discharge financial            assistance



mentoring arrangement
supervsedPractiCejivigarrangement
-- before age 19
supervsed practice living arrangement
-- age 19+
medical coverage
teenretreat/conference/wlderness

expenence
support groups


diSChargeServces(SpeCialized

counseling, housing placement, etc.




                                                  D-3
I STATUS/OUTCOME
  Element                             At what point in tie:
        Sour:
Educational status                    cumulative annual             SACWIS or
(highest grade completed)             freq uencies , collected at   ILP data system

                                      at discharge
                                                                    (depends on design

                                      (and at some point after      of each State
                                      discharge , if so decided)    SACWIS)
Employment status                                                   SACWIS or
                                                                    ILP data system

 # employed

 # employed for at least six                                        (depends on design

    months                                                          of each State
                                                                    SACWIS)

                                                                    Interface with
                                                                    unemployment and

                                                                    IRS data
public assistance   status                                          SACWIS or
                                                                    ILP data system

 AFC
 Medicaid                                                           Interface with
 Food Stamps
                                                       unemployment and

 other assistance
                                                  IRS data
maritalstatus                                                       SACWIS or
                                                                    ILP data system

 # single

 # married


# females who are        pregnant



# number of chidren (0 , 1, 2 , 3+)
housing status

 IL subsidized

 other publicly subsidized

 parents
 independent
 other
     staying in care voluntarily
                                   ILP data system

(to complete school , etc.




                                           D -€
                                 APPENDIX E
                          SAMLE PERORMCE                     MEUR€
In the body of this report, we propose that ACF could facilitate the development of
performance and outcomes measures for independent living. Below, we present
examples of measures that ACF and the States might consider adopting.


 PROCE MEUR€
 Meaur€                                                              Sour€
 Percent of eligible youth receivig a formal assessment of           ILP data collection€
 independent living strengths and needs in a tinely fashion
 (e. , before or at age 16)
 Percent of eligible 16 & 17 year olds participating in the IL€      SACWIS€
 program€
 Percent of eligible youth receiving each of certain specific        ILP data collection€
 servce (e. , group life skill classes , financial stipends , etc.
 Percent of participating youth completing all servce                ILP data collection€
 identifed in individual case plan                                   (eventually, SACWIS)

 Number of discharged youth returning for IL servce€                 ILP data collection
 Percent of participating youth remainig in care voluntarily         ILP data collection€
 past their 18th birthday in order to continue in school€



 STATUS/OUTCOME            MEUR€
 Meaur€                                                              Sour€
 Percent of participating youth holding a job at discharge€          ILP data collection at€
                                                                     discharge€
 Percent of participating youth having held a job for at least 6€ ILP data collection at€
 months at discharge€                                             discharge; interface with€
                                                                  unemployment and IRS€
                                                                  data€
 Percent of participating youth completing high school by            ILP data collection at€
 discharge€                                                          discharge€
 Percent of participating youth continuing to higher education€ ILP data collection at€
                                                                discharge€
 Percent of participating youth avoiding early parenthood by         ILP data collection at€
 discharge€                                                          discharge€



                                                E - 1€
STATUS/OUTCOME            MEUR
Meaure                                                       Sour
Percent of participating youth independent of public         ILP data collection at
assistance at discharge                                      discharge; interface with
                                                             unemployment and IRS
                                                             data
Percent of participating youth responding positively in a    ILP discharge survey
survey evaluating the servces they received (at discharge)




                                            E-2
                            APPENDIX F
                     COMM          ON TI        DRA REORT
In this appendix, we present in full the comments on the draft report offered by the
Administration for Children and Familes (ACF) as well as the Child Welfare League
of America and the National Independent Livig    Association.




                                        F - 1
...","...,                                                                                 . .




                     DEPARTMENT OF HEALTH II HUMAN SERVICES


                                                              ADMINISTRATION FOR CHILOREN ANO FAMILlE!
                                                              Ofrce 0' the Assistant Secre1ary. Suite 600

                                                              370 L' Enrant Promenade. S.

                                                              Washington, O. C. 20447





             August 30, 1994



             TO:	         June Gibbs Brown
                          Inspector General

             FROM:        Assistant Secretary
                            tor children and Families

             SUBJECT:     OIG Draft Report: "Independent Living Program for
                          Foster Care Youths: strategies for Improved
                          Administration for Children and Families
                          Management and Program Reporting, " OEI-Ol-93-00090

             Thank you for the opportunity to comment on the above-noted

             draft report.

             We generally concur with its findings and the two broad

             strategy recommendations that are outlined in the report.

             The options presented will be very useful for us to consid

             in our attempts to improve our management of the program.

             We look forward to receiving a copy of the final report and

             we appreciate the efforts made by your staff in its

             development.


                                                     Mary Jo Bane





                                                  F - 2

CWU                                                           Child Welfare
                                                              MO
                                                                              League
                                                                         Woshington. DC 200 1-
                                                                   First Street. NW. Suite 310.
                                                                                               of America, Inc.€
                                                                                                        20/638-€
                                                                                                               2085 . 202/638-2952 . FAX




PRESIDENT€
John F . Merchant€

VICE PRESIDENTS

Anne Duncan€
Judlll1Sherman€
Ruthann S, YamanaMa€

SECRETARY                                August 10 , 1994

Marilyn Co.€

ASSISIANT SECRETARY€
Norman W. Powell . Jr€

TREASURER€
                                         June Gibbs Brown€
RicharaH. Flemn'lg                       Insptor Genera

ASSISTANT TREASURER                      Deparent of Heath & Human Service€
Raymond P. Carpenler€

BOARD OF DIRECTORS

                                         Washigtn , D. C.              20201

CarOl Armstrong€
Char1es,L. Baker
Judith S. Block€
                                         Dea Ms. Brown:

Sheryl BrisseU- Chapman€
Sarah Bryanl
Nan Dale€                                Than you for th opportnity to review and comment on the      insption     dr                rert€
Charles A. DeGranClore
Jeanene Dunckel
                         entitled " Indepndent Living   Progr  for Foster Car Youths:   Strtegies for€
CharlesA. Haas

Kenl Hend :son
                                         Improved ACF Maagement and Progr Reortg . The Chid Welfare Legue€
George T. Hubbard                        of America (CWL) is commtted to improvig service to the at-risk youths served€
MaiBel! Hurley

Ann D. Jordan
JamesM. Karel€
                                         by the Title IV- E Independent Living                    Prgr (I).€
Glynn D. Key€
Karl G. Kong
                                         CWL supports the two mai recommendations your offce has made to improve the€
                                         IL; that ACF restrcture the application and progr reortg procedures for the€
Suzanne S. Megalnlm€
Elba Monlaillo .
Rob Mosbacher .
Timothy F .
                               Jr€
                          Noelker        ILP to more effectively support State                    plag
                                                                                        and to give ACF an accurate national€
M,chael R. DSlrQWSM'

Jane K Paine
                            picture of independent living efforts and that ACF should focus their restrcturig€
R,chard G Plolka
SlepnanlC G. ROb,ns,="

                                         efforts on inormation sharg.€
   1nlyn A 5cvmann€
r Stanie   ' Shavc€
S ;-lor,.al1 Shlrrv                                 APPLICATION AN                   PROGRA REPORTIG PROCEDUR€
::a,!h Sm'lh€
Pamera K Steele€
 larlha SwnnlS                                                            accurate national picture of independent living ejJons           it is

                                         In order to gai an
SUS;Jn S SICDIC!O

Georga W Swan III                        reommended that ACF move to a single , multi- yea plan which consolidates chid€
  JInG TherJ.111€
:J;uyY Tull                              welfare services, family support and preservation services , and independent living.€
::rI,,,..I.       \l1I1I,,"   ';lilr,€
                                         CWLA supports this suggestion with the addition of guidelines for development of€
HONORARY MEMBER

..It,; BI I\ W H, ,,''1'" I"             Sb.te plans with 
 specific youth and independent living s:::tions.€
EXECUTIVE DIREcro:?

     ".J             '':I!W:1\,",,'
                                         CWLA supports the recommendation to strengthen independent living reporting€
    PUTY DlRECIO:!

  1,,, I,,                . "r:".€
                                         mechanisms by retaining a distinct focus on independent living and youths in any€
WESTEI1NOFFICE€                          State child welfare reporting system. This would require ACF first to adopt€
                      1''''              standardized definitions of terms and then to provide the States with detailed€
                                         reporting instructions based on these terms. ACF could then develop the€
             '.'''''S_€
           ","1. 01:;,;5
   1,\.€
    , II       r"/"!I"'n€                standardized independent living information form , as recommended in your report.€
  01, .1.€

CWlA/CANADA€
           1..€


              1 ,W "€
                . ::r€
    ;,'d,€                                                                                        F - 3€
 '''''h. II.:€
CWU                              Guarding Children s Rights. Serving Children s Needs


       August 10   1994
       Page 2.


       ACF should playa key role in developing performance and out come measures for indepndent
       living, as remmended in the rert. Exstig effort in this                    ar
                                                                            should not , however , be
       forgotten. ACF could coordinate and dirt effort to brig together
                  focus on outcome  meaures.   ACF   could  also focus on assessment
                                                                                         reh
                                                                                        and advocy
                                                                                      inormation   on
       grups to
       youths to more accurately trck changes in status for outcomes.

       The report discusse the confsion around meaurig " reults                     parcipants
                                                                               achieved 90 days afer
      completed the progi" .        CWL     supprts moving to outcomes    discharge with ACF
      encouragig state which currntly trck youths beyond discharge to contiue to do so.
      also support the involvement of the young peple in progr evaluation efforts at dischare.


                                FOCUS ON      INORMTION SHAG
      CWL supports the recmmendation that ACF develop a mechansm for sharg inormation
      about progr services as well as bet practice inormation and models reived from the state.
      "Ts would reduce duplication of efforts in many        ar
                                                          and save the states considerable time and
      resources.

      The report recommends the introduction of centra office " youth speialists " to provide technca
      assistace and consultation to the states and to                    loc
                                                                  progras. CWL supports this
      recommendation and views this as one more step towards ensurig that the nees of vulnerable
      youths do not get lost in the efforts to consolidate chid welfare service application and
      reporting.

      CWLA welcomes this opportnity to provide input on this importt process. Please do not
      hesitate to contact me or Nancy Peppler , our Program Director of Youth Services , at (202) 638-
      2952 , should you have any questions.

      Sincerely,

lh-



  David S. Liederran
  Executive Diretor





                                                            F - 4

     . .                                         j: -          . .                                         . -, .
                                                                                                          -.----
                                                                                                        - ::.                : : /.-,.':',..
                                                                                                                   . .-:":- :,.        ':..




                                                   nringing

                                              urutaluing ta

                                      indepet living deelopment





August 8, 1994-


                                                                                                                      t);:;
                                                                                                                   :.,t.
June Gibbs Brown
Department of Health and Human Services
Office of - the Inspector - General:
330 Independence Avenue, Room 5250€
Washington, _ D. C. 20201€

Dear Inspector Brown:€
The - Boar d      and m embe       ship - of the National Independent Living-
Association (NILA) - j oin me          in expressing - my appreciation to you for
allowing us to comment on the draft of - the- report, "Independent
Living Program for Foster Care Youths: Strategies                                  for Improved - ACF
Management and - Program Reporting"that has been _ prepared for - the
Department of Health and Human Services Administration for Children
and Families. We were pleased to be consulted regularly by Tim
Corbett and Dave Veroff during the development of the report, it-
               the formulation
obvious that our -
recommenda tions.      €       input    - was utilized in                                        - of


I have provided our comments on each " Option for Improvement" in€
the order in which they appear in the document, beginning on€
page 8.
  1. Create a consolidated State plan for child welfare services that includes independent
      living.     (page 8)
      NILA supports this recommendation                                   especially      when
      combined with #4 below.
  2. Require states to establish measurable goals and targets, and to report on their
      progress.     (page 9)
      We recognize the need for outcome measures; however,
      federal staff should exercise caution in establishing
      guidelines in this area to                          avoid implementation of
      simplistic measures that may not be a true indication
      of the success of independent living services. NILA
      offers our assistance and support in the development of
      outcome measures.

                            National Independent Living Association
                                  s-
                      202 W(5 Eighth   This. OK 74\19- 1419 91815.2986 fAX9181592- IR41
                                                                                                                     ~~~ .,';;:
                                                                                                                - /,:". ",:    ,.,:"';,.
                                                                                                                            :':""
                                                                                                                               .      '" ..
                                                                                                                                   "?:.   ;:. ,:!..
                                                                                                                                                 :




June Gibbs Brown - Inspector General
August 8 , 1994
Page 2


  3. Adjust         lhe timing oflhe Stale plan and the granl award.                  (page 10)
                                                                                                                                    f:.
       NILA wholeheartedly supports this recommendation.
  4. Relain a dislincl focus on independenl living and youlhs in any State child welfare
       reporling syslem.              (page 10) '
       NILA wholeheartedly supports this recommendation.

  5. Provide the Slates wilh a simple. standard form for reporling aggregate informalion.
        (page 11)

       NILA supports                         is recommendation, we would , hope that any
       such form will eventually be automated.

  6.   Utilze the capabillies of Statewide                        Aulomaled Child Welfare Information Syslems
       and the Adoplion and Foster Care Analysis and Reporling System.                          (page 11)

       NILA supports this recommendation. It should be noted
       that  any new requirements for states to include
       independent living in their SWACWIS must be done promptly
       as a number of states are already in the development
       stage.
  7.   Encourage eleclronic reponing specifically for independemliving.                      (page 12)

       NILA supports this recommendation.

  8. Establish a standard. basic data sel for independent living.                       (page 12)

       NILA supports this recommendation and offers our support
       in the selection of the elements in the data set.

 9. FaciWale           lhe developmenl of clear definilions of independellliving              lerms.   (page
       13)
       NILA supports this recommendation                                             and the        Data
       Collection Task Force offers to develop                                                    dra ft
       definitions.
10.	 Collecl more detailed budgel dala lhrollgh lhe program reponing mechanism.
       (page 14)

       NILA supports this recommendation; however , we urge
       federal staff to keep budget categories broad.



                                                                          F - 6

June Gibbs Brown - Inspector General

August 8, 1994

Page 4



   17.       Report on State performance measures.
                                                                                 (page 19)


             NILA supports this recommendation.


   18.       Disseminate qua/iative updates on State activites.
                                                                                           (page 20)                       !:f


             NILA supports this recommendation.


   19.       Share model forms and directories of available resources.
                                                                                                    (page 20) .€

             NILA supports this recommendation.


   20.	      Develop a focus for ACF youlh programs in central office and each regional office.
             (page 21)

             NILA supports this recommendation. Implementation of€
             this recommendation would provide tremendous support to

             state agency staff who are isolated throughout the

             country .
   21.	 Incorporate independent living issues into other child welfare monitoring activities.
              (page 22)

             NILA supports this recommendation.


   22. Become a resource on other Federal programs serving youths. and facilitate
             coordination among these and the lirdepelldellt Living Program. 

                                                                                                        (page 22)


             NILA supports this recommendation.


The Independent Living coordinator from Pennsylvania asked that I

also mention that the Pennsylvania reports referred to as the end

of the year report is actually the application that counties submit

for funding.


Any review of the IV-E Independent Living Initiative would be

incomplete if it did not include information on the quality of the

staff. Mike Amrose and Irene Hammond are significant assets to

the IV-E-IL program. They have been diligent
                                                                                               in     keeping the states
informed of developments
                                                           in     the program. It is amazing that they
have been able to be so supportive of the states with so few staff
resources. Any recommendations on this program would be incomplete
if they did not include a recommendation to increase the number of

staff and travel money for this program.





                                                                                  F - 7

                                                                                                       ..




June Gibbs Brown - Inspector General
August 8, 1994
Page 3


 11.€ Solicit information on effective practices and innovations.                            (page 14)

       NILA supports this recommendation.                                                                                "b.

                                                                                                                  . I"    I-"


 12.   Develop performance and outcomes measures for independent living.
                                                                                                   (page 14).

       voiced about #                      2. NILA welcomes the opportuni tyt6 be
       NILA supports this recommendation with the reservations

       involved in the development of these measures.
                                                                                                                  t:t:

 13. Establish general parameters within which States could define specific outcomes and.
       ways of measuring those outcomes.                         (page 15)
       NILA strongly supports. this                                          recommendation. This
       recommendation must be implemented if states are going
       to be given the latitude to develop their own outcome
       measures.
 14.   Focus on the status of youths at discharge.                         (page 16)

       NILA supports this recommendation; however, we do not
       believe that we should "focus" on youth only at
       discharge. We recommend that the language be changed
       to  indicate that discharge is one point at which
       information should be              Youths should be      obtained.
       looked at on                         several occasions:                          at   age 16, at
       discharge, and at different points in time after the
       youth is discharged from care.

 15. Encourage and assist State efforts 10 link independent living data systems with
       public assistance. unemployment. criminal justice and                           Internal Revenue Service
       information systems.                (page 17)

       NILA strongly supports this recommendation.

16.    Play all active role in independent living research.                     (page 17)

       NILA strongly supports the federal central office
       contracting for national research on                                             independent living,
       especially longitudinal studies to follow youths for years
       after they leave             this point   in  care. At
                                                    time , several
       states are lapsing IV-E-IL " matching "                                          funds. We recommend
       that some of these funds be utilized to help fund central
       office functions such as research.




                                                                       F-8
                                                                        .. ":.... ,.. '.,'
                                                                             . ;:..:.:" ,:
                                                                                         "'"
                                                                                          ::.!
                                                                                          "




June Gibbs Brown - Inspector General

August 8, 1994

Page 5




Lastly, we want to commend the work of Tim Corbett and David
                    with us to
Veroff. Both of these young men spent a tremendous amount of time.
and energy workingcommend               secure our    opinions and.                          '1;,



recommendations. We       Tim and      David for excellent work in
blending divergent perspectives and developing an excellent report..
If they are representative of the caliber . of your staff , you are a
very fortunate administrator. 

Please feel free to call me at 512/450-3309 if .      you have    any
questions regarding  our . comments. Again, thank you very much   for
providing us the opportunity to comment on the report.

Sincerely,


Thomas Chapmond

Chairperson
   Mike Amrose
   Irene Hammond

   Timothy Corbett
   David Veroff

   NILA Board Members





                                 F-9
                                    APPENDIX G
                                                         NOTE




Child Welfare League of America                           Standards for Independent Living Services
1989 , section 1.2 ,           p. 10.


Westat , Inc. A National Evaluation of Title IV-E Foster Care Independent                       Living
Programs for Youth HHS contract 105- 87- 1608 , Phase I , Vol , I , p. 4-

Consolidated Omnibus Budget Reconciliation Act of 1985                           (PL.   99- 272). Ths
law provided funding to States for servces to youth in foster care who were 16
to 18 years of age and who were receivig foster care maitenance payments
under Title IV-E of the Social Security Act , which is tied to eligibilty for Aid to
Families with Dependent Children (AFDC). Subsequent amendments to the
law provided additional funds and made various changes in eligibility and
oversight requirements , including giving States the option of providing
independent living servces to non-Title- IV- E chidren and to youth up to age
21.

Funds are allocated on the basis of each State s relative share of the nation
population of foster-care children in 1984; this base year has not been updated
since the start of the program. The first $45 milion requires no cost sharig;
the remaining $25 milion requires a dollar-for- dollar State match , which can be
in-kind or cash. Each fiscal year s grant is paid out in quarterly payments , and
must be spent by the end of the fiscal year following the fiscal year in which the
award was made.

Administration for Children , Youth , and Famiies , Program Instruction
(ACYF- PI- 93- 01), December 10, 1993.

There has been one formal evaluation of federally funded independent living
programs , conducted in 1988- 90 by the consulting firm Westat , Inc. , under
contract to ACF (see note 2). That study concluded that " the passage of P.
99- 272 has had a dramatic effect on the development and implementation of
independent living policies and servces " in the States. The study also
determined that such servces have the potential to improve outcomes for
youth , and that education and employment opportunities appeared to be of
particular importance.




                                                         G -€
      Origially, States were required to submit quarterly     fiscal reports (Standard
      Form 269) on the independent living grant; because of the two-year
      expenditure period for the grant , each annual grant generally entailed 8 reports.

      Recently, the reporting schedule has been revised--in part to reflect the late
      awarding of the grant. Thee reports are now required , one at the end of the
      first fiscal year of the expenditure period , one at the middle of the second year
      and a third at the end of the second year.


      The ACF's grants reengieering process entails a reexamiation of the fiscal
      admistration and oversight of the host of grants within the purvew of the
      agency. Our report does not address fiscal reporting requirements; we expect
      that ACF will give full consideration to the ILP grant as part of the
      reengieering process.

      Repon of the Administration for Children and Families ' Monitoring Team Draft
      April 1994.

      Other recent program initiatives wi also have an impact on all ACF chid
      welfare programs , including the ILP. First, through the Family Preservation
      and Family Support Act , ACF will move to prevent crises by proactively
      assisting at- risk families. Second , through the Adoption and Foster Care
      Analysis and Reporting System (AFCARS), ACF has established a required
      basic data set for each child in substitute care. Third, through the State
      Automated Child Welfare Information System (SACWIS), ACF will provide
      funding and direction for the development of computer hardware and softare
      for State child welfare programs.

10.   Most   OIG    reports focus largely on detailig program, policy, or administrative
      deficiencies in separate section entitled " Findings.

11.   Through the Runaway and Homeless Youth (RHY) Programs , ACF directly
      funds competitively selected public and private agencies to provide servces
      including housing, to these groups of youth. Many of these providers also serve
      youths who are stil in foster care , through contracts to States for the provision
      of independent living servces.

      In ACF central offce, the RHY programs are admistered by the Family and
      Youth Servces Bureau. At the regional level, the organizational structure
      varies. In five regions ,
                            the ILP and the RHY programs are located within the
      same branch. In other regions , the RHY programs are located in the Head
      Start Branch , which similarly provides direct grants to servce providers (as
      opposed to State governments).

12.   The enabling legislation for the program requires each State to submit an
      application for funds , separate from its general child welfare plan. In the early
      years of the program , this requirement ensured that States paid particular


                                           G-
                                                                                            ,." -   "     ':'-   :!'.
                                                                                                        ;-o




      attention to independent living and youth. This separate application process
      also allowed the States and ACF to be somewhat flexible in plannng, given the
      program s initially temporary status and uncertain future.

      It should be noted that some States have included independent living more
      comprehensively in their planning efforts than others. Some regional offces
      likewise, have made a point of including independent living in the joint planng
      process.

      The application is due by February 1st , and funds generally are not awarded
      until the third quarter of the fiscal year. The earliest date that application are
      accepted is October 1st , while this year, the program instruction regarding the
      application did not go out until December 10th.

14.   Although there is no standardized reporting format for the States, ACF does
      require that regional staff use a standard checklst in reviewing the applications
      and reports. In one region ,   the staff with whom we spoke had shared this form
      in advance with the States , so that they could collect the specific information
      correctly. In fact , one State coordinator had copied this form and given it to
      his district staff, so that they too could collect the right information throughout
      the year. The coordinator simply compiled these reports from the districts
      both monthly and annually.

15.   The ACF does ask States to provide in their program reports " a complete
      record of the purposes for which the funds were spent. " States have
      interpreted this requirement very loosely, however. For example , one regional
      staffer noted that one State in his region provided a three page budget
      detailing all expenses , while another provided only a three line budget , outling
      Federal , State , and total expenditures.

      Fiscal reporting requirements (as opposed to program reporting requirements)
      are very minimal.

16.   Only 2 of the 11 States with whom we spoke had fully automated systems for
      independent living information , while 4 others could obtain some relevant
      information from their States ' general child welfare computer systems. In a
      number of States , the independent living coordinator has access only to
      aggregate information on the numbers of youth served in counties , districts , or
      regions; in others , the coordinator has access to information on a per-youth
      basis. At least one State has no separate reporting capability for independent
      living. In several States , the coordinator has no line authority over the staff
      providing servces , which can limit the abilty to access information.

17.   States noted that youth are very anxous to be free of the child welfare system
      and often want nothing to do with it once they are discharged. States have
      tried various methods to encourage youth to return mail surveys or to come


                                          G-
      back for follow-up intervews after discharge, including cash payments and
      certificates. Their success has generally been quite limited.

      There are also signcant variations in how this inormation is reported. Some
      States report on youth at 90 days after their participation in an independent
      living activity, such as a group lie skis course. Some of these youth, therefore
      may stil be in the care of the State; they are not yet independent. Other
      States report on the results achieved 90 days            afer discharge from custody,
      regardless of when independent livig servces were provided or completed.
      the 11 States with whom we spoke, 4 stared the clock at servce completion,
      6 at discharge (for one we were not able to detemIe this information). Ths
      timing issue can be further complicated in the case of 18-21            year-olds who
      return for assistance after their intial discharge.



      In one State, the situation is even more complex. Ths State has instituted an
      option caled "trial discharge, " which allows youths to leave the system but
      retain the option of returng to State custody up to age 21 if they have
      problems. The results reported for youths durig trial discharge , therefore, may
      not provide a useful picture of their ability to manage real independence.

      We also noted a basic methodological problem in the reporting of this
      information. States report the number of "                  (such as the number
                                                          results achieved"


      employed and the number holdig a GED). In most reports , it is not possible
      to detemIe                        for whom these results are being reported.
                             the number of youth

      For example , a State may report that 100 youths were employed and
      100 youths graduated from high school; it is not possible to detemIe whether
      the population reporting equals 100 or 200 youths , or somethig in between.


18.   Several State contacts also were concerned that independent living funds might
      be lost in the overall fuding stream to the States , and be redirected by agency
      admstrators to seemigly more urgent State priorities. They urged that funds
      remain a distinct stream.

19.   The enabling legislation for the ILP requires States to submit an annual
      application for funds; legislative or regulatory change might be required to
      replace the application with a consolidated plan.



20.   Goals and progress updates could be included in any planning and reporting
      framework ACF chooses; they could be set out in either free-standing
      independent living applications and reports or integrated child welfare plans
      and reports.

      Although the current application and reporting requirements do not mandate
      that State s establish specific goals and report on their progress in meeting
      them, some States have structured their submissions in this fashion.



                                                   G -

21.€     The enablig     legislation for the ILP requires States to submit an annual
         program report providing a description of their programs; any consolidation of
         reports may requires legislative or regulatory change.

22. .	   Such a document might require approval from the Offce of Management and
         Budget.

23.      58 Fed. Reg. 67939 ,   Dec. 22, 1993.

         With respect to independent living, the SACWIS regulations require only that
         the systems be capable of identifg eligible youth.
24.      Westat , Phase I, Vol., p. ix.

25.      58 Fed. Reg. 67913 ,   December 22 , 1993.

         There would be certain limitations to the usefulness of AFCARS and SACWIS
         for the purposes of independent livig; most importantly, they would not
         include youth formerly in foster care who retu for independent livig
         assistance. Inormation on such paricipants (who in most States represent      a
         very small percentage of all youth served through the independent living grant)
         might have to be maintaied separately.
26.€     Several of the State coordinators with whom we spoke voiced concerns about
         States that are currently unable to track specifc servces provided to youths.
         These critics were skeptical about programs that report that they are servng
         large numbers of youth by virtue of training to staff or foster parents that
         trickles down " or who report that they serve everyone in the eligible age group
         because that s the regulation.
27.€     As an example ,  one coordinator pointed out that her district- level
         admistrators "were really nailg me to the wall about ' what are the     mium
         requirements that the feds lay on us.' And when I had to say they only require
         90 days , then they said that's all they re going do , the minium. I argued and
         argued that you don t see much at 90 days , but it didn t matter. It was an issue
         of resources.

28.      In 1990, a NIL data collection task force surveyed the States regarding their
         data collection activities. The group found that one of the most signcant
         diffculties in interpreting the States ' responses was the lack of common
         definitions of terms. This issue was also well recognized at the NIL annual
         meeting in March 1994.

29.€     While the requirements of the fiscal report are very limited , ACF can require
         more financial detail in its program reporting mechanisms. For example , both
         the Developmental Disabilities Program and the Social Servces Block Grant
         require substantial budget detail.


                                             G-
                                                                                               ,..,




30.	   In our discussions with State and regional staff, we suggested lookig at the
       Federal-expenditures-per-youth as a measure of program extent and intensity;
       we received widely divergent reactions. Some staf argued that the figure was
       meaningless because it did not include additional State funds , did not take into
       account regional cost variations or varyng levels of admistrative costs for
       county- and State-run systems, and was not lined to program outcomes. Other
       contacts regarded the number as a very important insight , and suggested that it
       would prompt them to ask questions about the reasons for the variations
       among the States.

31.	   The Chid Welfare League of America is currently engaged in an effort to
       identify core elements of independent livig practice; ACF is represented on
       the project's advisory committee. These efforts might connect well with the
       ultimate development of performance measures.

32.    By process areas we mean such thigs as the geographic extent of servces , the
       training of staff, the length of programs , and so on. By interi outcomes we
       mean such thigs as youths ' educational and employment status at the time of
       discharge. By final outcomes we mean such thigs as youths ' education and
       employment status at points after discharge , whie the youths are livig
       independently.

33.	   Most State and regional contacts stressed the importance of educational
       attainment--including completion of high school              GED , or
                                                            , earng of a


       continuation to higher education--as a key measure. Simarly,           the evaluation
       by Westat, Inc. , determined that high school completion prior to discharge from
       custody " led to better outcomes , regardless of skis traing " (Westat       , Phase


       Vol      p. xiii).

34.    The ACF could take several additional steps to emphasize the importance of
       educational efforts. As suggested by the Chid Welfare League of America
       ACF could suggest amendig current legislation to require that individual case
       plans " outlie       the steps being taken to help youths obtai a high school degree
       or its equivalent" (Child Welfare League of America            Independent Living
       Services for Youths in Out-of-Home Care 1993 , p. 51). Section 475 of the Social
       Security Act stipulates requirements for the case plans of chidren in substitute
       care. More broadly, ACF could require or encourage better coordination
       between independent living servces and local educational systems.

35.	   States have created a variety of innovative means of measuring outcomes and
       program impact. These include exit intervews with youth , follow-up intervews
       mail surveys , evaluations by youth of the servces they have received , and
       efforts to determine if youth have developed meaningful relationships in their
       lives.




                                               G -

                                                                                              -o'




36.€   Many States treat independent living preparation as a discrete program, to
       which youths are referred by their priary case worker, and which lasts for a
       set period of time. In such programs , a youth might be referred for
       independent livig    traig  at age 16 , complete the traing by age 17, and
       remain in care for several more years--until age 18 , 19, or even 21. The
       independent livig program might have no further contact with this youth after
       completion of the traing program. In these programs, therefore, requied
       reporting on the status of youths at discharge would represent an important
       new source of inormation on the preparedness of these youths at the time they
       actually become independent , and would indeed give a longer- term picture of
       the youths than inormation at 90 days after the completion of servces,       as is

       now generally reported.

37.    Micent Abel , Ph.           , Evaluation of the Independent Living Program/
                               et. al.

       Initiative; Summary of Evaluation Urban Research Center , University of
       Louisvie, March 13 , 1990 , p. 6.

38.€   One State, for example, is curently negotiating with    crial    justice offcials to
       get such inormation in aggregate form (through ' 'blid matches ); they would
       not be able to track individual youth , but could see overall trends.

39.    CW      Independent Living Services   p. 52.


40.€   For example ,   one regional offce shares the application and report from each of
       the region s States with all of the other States in the region.

       Although ACF produces an annual report to Congress that mially
       summarizes State programs , offcials in several States mentioned that they have
       not received this inormation. Aside from the sparse information contained in
       this report to Congress , ACF produces no national information on the program.
41.    In addition, as noted above, the organzational structures of the regional offces
       vary with respect to youth servces: In five regions , the Runaway and Homeless
       Youth (RHY programs are administered by a diferent branch than the ILP.
       Such fragmentation may lit the abilty of ACF program specialsts to devote
       time to youth issues and to provide useful assistance to the States.
42.€   The National Resource Center for Youth Servces (NRC) released a
       compilation of 34 State policies in 1993. The ACF has funded resource centers
       in various subject areas to provide technical assistance and support to State
       agencies and grantees receiving funds from ACF.

43.€   Depending on resource availability, ACF might be able to fund a national
       resource center for youth servces for such a function.




                                           G -€
